<html>
<title> - REVIEW OF MARINE CORPS FORCE PROTECTION</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



                                     

                         [H.A.S.C. No. 109-80]
 
                REVIEW OF MARINE CORPS FORCE PROTECTION

                               __________

                                HEARING

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                             JUNE 21, 2005

                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13


                     U.S. GOVERNMENT PRINTING OFFICE
32-997 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                                     
                   HOUSE COMMITTEE ON ARMED SERVICES
                       One Hundred Ninth Congress

                  DUNCAN HUNTER, California, Chairman
CURT WELDON, Pennsylvania            IKE SKELTON, Missouri
JOEL HEFLEY, Colorado                JOHN SPRATT, South Carolina
JIM SAXTON, New Jersey               SOLOMON P. ORTIZ, Texas
JOHN M. McHUGH, New York             LANE EVANS, Illinois
TERRY EVERETT, Alabama               GENE TAYLOR, Mississippi
ROSCOE G. BARTLETT, Maryland         NEIL ABERCROMBIE, Hawaii
HOWARD P. ``BUCK'' McKEON,           MARTY MEEHAN, Massachusetts
    California                       SILVESTRE REYES, Texas
MAC THORNBERRY, Texas                VIC SNYDER, Arkansas
JOHN N. HOSTETTLER, Indiana          ADAM SMITH, Washington
WALTER B. JONES, North Carolina      LORETTA SANCHEZ, California
JIM RYUN, Kansas                     MIKE McINTYRE, North Carolina
JIM GIBBONS, Nevada                  ELLEN O. TAUSCHER, California
ROBIN HAYES, North Carolina          ROBERT A. BRADY, Pennsylvania
KEN CALVERT, California              ROBERT ANDREWS, New Jersey
ROB SIMMONS, Connecticut             SUSAN A. DAVIS, California
JO ANN DAVIS, Virginia               JAMES R. LANGEVIN, Rhode Island
W. TODD AKIN, Missouri               STEVE ISRAEL, New York
J. RANDY FORBES, Virginia            RICK LARSEN, Washington
JEFF MILLER, Florida                 JIM COOPER, Tennessee
JOE WILSON, South Carolina           JIM MARSHALL, Georgia
FRANK A. LoBIONDO, New Jersey        KENDRICK B. MEEK, Florida
JEB BRADLEY, New Hampshire           MADELEINE Z. BORDALLO, Guam
MICHAEL TURNER, Ohio                 TIM RYAN, Ohio
JOHN KLINE, Minnesota                MARK E. UDALL, Colorado
CANDICE S. MILLER, Michigan          G.K. BUTTERFIELD, North Carolina
MIKE ROGERS, Alabama                 CYNTHIA McKINNEY, Georgia
TRENT FRANKS, Arizona                DAN BOREN, Oklahoma
BILL SHUSTER, Pennsylvania
THELMA DRAKE, Virginia
JOE SCHWARZ, Michigan
CATHY McMORRIS, Washington
MICHAEL CONAWAY, Texas
GEOFF DAVIS, Kentucky
                   Robert L. Simmons, Staff Director
                    Jesse Tolleson, Program Analyst
                Andrew Hunter, Professional Staff Member
                     Curtis Flood, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2005

                                                                   Page

Hearing:

Tuesday, June 21, 2005, Review of Marine Corps Force Protection..     1

Appendix:

Tuesday, June 21, 2005...........................................    39
                              ----------                              

                         TUESDAY, JUNE 21, 2005
                REVIEW OF MARINE CORPS FORCE PROTECTION
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Hunter, Hon. Duncan, a Representative from California, Chairman, 
  Committee on Armed Services....................................     1
Skelton, Hon. Ike, a Representative from Missouri, Ranking 
  Member, Committee on Armed Services............................     4

                               WITNESSES

Catto, Maj. Gen. (Select) William D., Commanding General, Marine 
  Corps Systems Command, U.S. Marine Corps.......................     7
Nyland, Gen. William L., Assistant Commandant, U.S. Marine Corps.     5

                                APPENDIX

Prepared Statements:

    Hunter, Hon. Duncan..........................................    43
    Nyland, Gen. William L. joint with Maj. Gen. (Select) William 
      D. Catto...................................................    49

Documents Submitted for the Record:

    Add on Under Armor for Light Skin HMMWV's....................    69
    Timeline for Tactical Vehicle Underbody Armor Kit Solution...    94

Questions and Answers Submitted for the Record:

    Mr. Hunter...................................................   103
                REVIEW OF MARINE CORPS FORCE PROTECTION

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                            Washington, DC, Tuesday, June 21, 2005.
    The committee met, pursuant to call, at 9 a.m., in room 
2118, Rayburn House Office Building, Hon. Duncan Hunter 
(chairman of the committee) presiding.

OPENING STATEMENT OF HON. DUNCAN HUNTER, A REPRESENTATIVE FROM 
       CALIFORNIA, CHAIRMAN, COMMITTEE ON ARMED SERVICES

    The Chairman. The committee will come to order.
    This morning the committee continues its review of the 
status of Marine Corps tactical vehicle armoring, and 
specifically we are going to discuss the requirements in the 
theater, what is happening in the theater in that dangerous 
area in Iraq where Marines are taking and have taken fairly 
substantial casualties, what we are doing and what the Marine 
Corps Systems Command here is doing to meet those challenges.
    And with us this morning are General William L. Nyland, 
Assistant Commandant of the United States Marine Corps, and 
Major General (Select) William D. Catto, who is the Commander 
of the Marine Corps Systems Command.
    Thank you, gentlemen, for being with us this morning. We 
appreciate your attendance and your service to the country.
    Gentlemen, the reason we called this hearing is because of 
what I consider to be a focused, but very important issue; and 
that issue is that while we are working with big companies back 
here, with big schedules to move modern armor into the theater, 
the Marines who are over there right now, as well as Army 
personnel, who are meeting on a daily basis very creative 
threats that are being worked up and devised by the enemy, are 
meeting lots of danger; and they are doing that with vehicles 
that weren't designed initially to undertake this type of hit, 
literally.
    And last year we had a gunnery sergeant--and if you will 
turn to your, to the handout that I have got, we had a gunnery 
sergeant.
    The Marines in theater, being the adaptive and creative 
people that we teach them to be, came up with some methods of 
saving the limbs and the lives of our people who were in 
theater. And specifically one gunny sergeant who headed up a 
motor transport operation over there, came up with a system of 
placing plates of steel underneath high mobility multipurpose 
wheeled vehicles (HMMWVs) as the advent of mines, these triple-
stacked mines, became prevalent in the western area of 
operations.
    And this is pretty simple stuff. Once that explosion goes 
off and the shrapnel is headed up into the body of the vehicle, 
it is a matter of physics. You either have the protection to 
stop the projectiles going at a certain velocity with a certain 
mass or you don't.
    This gunnery sergeant came up with a method of stopping the 
most deadly injuries and protecting people, and he gave us some 
fairly interesting illustrations of how his kit that he was 
bolting on in the theater to save his Marines was working. And 
if you see the side by side up here, you will see what I am 
talking about.
    He gave us these two slides. And the first slide, the side 
by side, is a slide that shows heavy passenger injuries with 
loss of limbs. That was--these are mine strikes, or strikes 
that are underneath the vehicles. If you look at the slide on 
the left side, where it says side by side, on the left side, 
that is a mine strike in which the gunny sergeant had placed 
plates of steel and those steel plates stopped the shrapnel and 
the projectiles from getting into the compartment and killing 
or badly wounding Marines.
    Now, on the other side, you can see the unprotected, the 
same fender well that is unprotected, and you can see where it 
blew through; and in fact, according to the gunny sergeant who 
put this plan together, this program together, without the 
fabricating armor, the fender well is completely missing and 
presumably the legs of the person who was sitting behind that 
fender well were also completely missing. So this was pretty 
simple stuff.
    If you will move that slide, now, we have also some 
pictures of the armor that the gunny came up with. If you will 
turn to the--I believe it is your fourth chart down, and if the 
Members would turn to their fourth chart down, they will see a 
piece of steel.
    Now, this is not rocket science. We are going to put this 
piece of steel up on the board. Go ahead and put that up there.
    The gunny sergeant came up with pieces of steel, many of 
which he took off vehicles that were being scrapped because 
they were--we were moving new kits into the theater, and some 
of that is the 3/16 armor that we had before and we have moved 
off. So he had some leftover steel available. He took it, 
presumably used a plasma cutter, and he and his people in that 
motor pool cut these pieces of steel and they bolted them onto 
the underbody of their HMMWVs to save the lives of his men.
    Keep those going. Let us see if we have got a few other 
pieces. Again, this is pretty simple stuff.
    Now, he sent this, and there you can see the passenger side 
of the steel. You can see how it is up there in front of what I 
would call, or I would call the ``leg saver area.'' that is 
where fragments can come in from the side and from the 
underbody; and if you saw the other side, you would see a 
second piece of steel up under the fender well.
    But he simply bolted those on. And according to him--and 
again, he had the side by sides where they had none of this and 
there was no fender well and presumably no leg, and he had 
pictures of the vehicles in which people were KIA, killed in 
action, because they didn't have that protection. And then he 
showed the ones where he had bolted these leg savers and body 
savers up underneath, and people lived. In one instance, a 
person lost a couple of teeth, had a broken leg, but he lived, 
did not lose any limbs.
    And the gunny recommended to the Marine Corps that they get 
a lot of this steel to the motor transport units out in the 
area of operations (AO), that is, out in Iraq and let them put 
it on; and while they are waiting for the fancy stuff to 
arrive--that is, for the new kits that are coming in, that you 
have advised us will be there in full supply by December of 
this year--while we are waiting for that, they could be putting 
this on. They could be saving lives.
    Now, the reason I walked through this is because I think 
that this is a pretty good plan. It is the simplest and most 
practical plan. It amounts to putting steel in front of 
projectiles so that when the improvised explosive device (IED) 
goes off, they don't hit the soft bodies of the people who are 
inside those vehicles.
    Now let us go to the timeline for response from the Marine 
Corps for this. The gunny sergeant made this presentation to 
help his Marine Corps, sent it back here, and this is where it 
hit Washington.
    On February 15, we had a senior Office of the Secretary of 
Defense (OSD) staff member from Secretary Rumsfeld's staff, who 
met with the Marine Corps and with Mr. Bob Simmons to discuss 
getting this underbody action, this little program, undertaken 
simply by moving some steel out of the theater and allowing the 
Marines, while they are waiting for the other stuff to arrive, 
to protect themselves. That was February 15.
    In March, nothing happened. We kept waiting for an activity 
to occur in Marine Corps Systems Command. That is the command 
that you command, General Catto. No action.
    Let us go to April. In April, April 21, General Nyland, 
having seen no action for roughly two months on what we thought 
was a critical need to keep our troops intact and prevent 
casualties in the theater, I set up an appointment with you and 
came in and met with you; and you advised me at that time that 
the Marines decided not to do this.
    I asked you why not, and you told me that you had had a 
report that this might worsen injuries. And I asked you to 
provide me an engineering report on that. There was no 
engineering report. That was just a comment, a typical comment, 
put out by bureaucracy to keep from doing anything. You don't 
do anything until you can do everything, so you do nothing.
    At that meeting you advised me that you were interested in 
moving ahead on this program, but you couldn't do it with high 
hard steel because high hard steel is too brittle and will act 
itself as fragmentation underneath the force of a three-stacked 
mine blast.
    It took us one day, General Nyland, to find rolled 
homogenuous armor (RHA) steel, which you said you needed to 
perform this job. The RHA steel was in Kuwait, a couple hundred 
miles away from the Marines that needed it in quantity. And you 
agreed at that point, April 21 or the 22--no, it was on the 21, 
because we found the steel on the 22--you agreed on the 21 to 
get this thing done. And we all left that meeting with the 
understanding that this thing would be done.
    May passed. No action.
    Now I am told--do we have a June slide? I am told that 
yesterday, the day before the hearing, you made the contract to 
fabricate this underbody armor.
    So we had a gunnery sergeant heading up a motor pool in 
theater who was saving the legs and lives of his Marines, and 
had some pretty good documentation, including after-action 
photos to validate that. That happened last year. It is now 
halfway through this year and you have made a contract to have 
this stuff cut by a private firm.
    Now, obviously, the motor pool of personnel up there have 
the ability to cut it themselves because the gunny sergeant's 
cutting this stuff in theater. They have obviously done that on 
the HMMWVs that they have already up-armored.
    So this is a sad day for us. It is a sad day because we 
have got Marines out there in the theater who are fighting with 
a great sense of urgency for our country. And they take 
advantage of every opportunity to try to be creative, to try to 
be aggressive, to try to be courageous, to serve this country.
    The bureaucracy, gentlemen, that you head up back here, 
while it has done some good things, it has made some good 
contracts, you have got some HMMWVs moving, you have got some 
armor moving, is resistive to moving this thing with a sense of 
urgency. And you end up being an adversary to the people in the 
field who are trying to get things done quickly.
    Now, if you had a problem, an engineering problem, with 
what this gunny sergeant came up with, you could have sent one 
of your engineers, or a team of engineers, out to say, Well, 
let's do it, but let's do it a little bit differently. We have 
a engineer who has got a concern about something. Let's move 
them out there.
    If you were concerned about whether or not you had the 
right kind of steel, you could have done the same thing that 
Mr. Simmons of our staff did. It took him one day to find the 
kind of steel you said you had to have, and the steel happened 
to be just a couple of hundred miles from the Marines that 
needed it.
    But you didn't do that. And I think that represents the 
disconnect that we have got between the warfighters who are 
doing a magnificent job and the bureaucracy that is serving 
them. And we are all part of that bureaucracy, and that is why 
we are here this morning.
    And I have got your statements. We are going to take those 
statements into the record. But, gentlemen, I want to hear from 
you how we are going to move out and how we are going to get 
this stuff underneath these vehicles as quickly as possible.
    Let me turn to my friend from Missouri, Mr. Skelton, for 
any remarks he would like to make, and then we will recognize 
General Nyland.
    [The prepared statement of Mr. Hunter can be found in the 
Appendix on page 43.]

STATEMENT OF HON. IKE SKELTON, A REPRESENTATIVE FROM MISSOURI, 
          RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Skelton. Thank you Mr. Chairman. I will be brief. I 
welcome the witnesses on this very important topic, and I share 
the frustration of our Chairman when hearing the facts out.
    Today, we will hear testimony on the important issue of 
vehicle armor. This is an issue which our committee has 
explored on many occasions. It is an old subject with us. And I 
think a full and complete airing of the facts is so important, 
so we in the Congress can ensure that our service members get 
all they need to be protected.
    Providing adequate vehicle armor is a problem that 
continues to bedevil the Department of Defense. We heard 
testimony as late as May 5 that the armor issue was being 
resolved. And here we are again plowing the same old ground 
again.
    For nearly two years we have watched services struggle to 
provide adequate armor to the fleet of ground vehicles in Iraq, 
and this committee and I have offered assistance and provided 
funds to try to alleviate this problem. But, unfortunately, 
here we are again, hearing testimony on shortfalls protecting 
our Marines; and needless to say, I am sorely disappointed.
    The Department of Defense should take more of an active 
role managing this issue and further assist the services in 
meeting the needs of our service members. They are yours. They 
are your troops.
    This ongoing problem only amplifies the need for this 
committee to fully exercise its oversight responsibilities to 
ensure that this and other important defense matters are not 
mismanaged. Our military, particularly the United States Army, 
is stretched as it fights the war in Iraq and the war on 
terror. And add to that the stress the ongoing transformation 
of the Armed Forces, the base closures, because it is clear we 
have entered a period of significant risk with regard to our 
Nation's defense.
    It is imperative that this committee exercise comprehensive 
oversight over the full spectrum of defense issues to include 
the declining readiness of equipment, service policies in 
recruiting, retention and our policy in handling detainees. I 
urge my colleagues not to focus on one issue alone, and let's 
explore it as fully as we can today.
    Mr. Chairman, I join you. Thank you.
    The Chairman. Thank the gentleman.
    General Nyland, thank you for being with us. The floor is 
yours, sir.

STATEMENT OF GEN. WILLIAM L. NYLAND, ASSISTANT COMMANDANT, U.S. 
                          MARINE CORPS

    General Nyland. Chairman Hunter, Congressman Skelton, 
distinguished Members of the committee, I am pleased to appear 
today to update you all on our force protection efforts, in 
particular our evolving vehicle armoring initiatives.
    Let me----
    The Chairman. Can you pull that mike a little closer, 
General?
    General Nyland. I will start back at the beginning.
    Chairman Hunter, Congressman Skelton, distinguished Members 
of the committee, I am pleased to appear here today to update 
you on our force protection efforts, in particular our evolving 
vehicle armoring initiatives.
    Let me begin by thanking you, Mr. Chairman, and the 
distinguished Members of the committee for your unwavering 
support of your Corps. Your support of these magnificent young 
men and women is greatly appreciated not only by the individual 
Marine, but by the leadership of the Corps.
    As Lieutenant General Mattis testified on 5 May, he went 
5\1/2\ months at the end of Operation Iraqi Freedom-One (OIF-1) 
without losing a single Marine or sailor. Yet during that 
period, in the intervening months, the insurgency was growing. 
When the Marines returned to Iraq in March of 2004, the threat 
had been evolving and the IED had started to become prevalent.
    The IED threat then was generally 60-millimeter or 81-
millimeter rounds, but today because we face a smart, adaptive 
and thinking enemy; we face munitions like 122-to-155-
millimeter shells, triple-stacked mines, and even recently, 
shape charge-like weapons. As this threat has evolved, so has 
the armor protection for our tactical vehicles, the details of 
which can be found in my prepared statement.
    Most recently, because of the growing threat of mines and 
IEDs, the Marines have increased delivery of the underbody from 
the Marine Armor Kit for installation on 400 HMMWVs at the unit 
level. Production of all 400 underbodies is complete; 372 are 
on the ground in Iraq and the balance should arrive by the last 
part of this week.
    We are also making good progress on the production of 
underbodies to upgrade the armor on our 5-ton medium trucks and 
on logistic support vehicles (LVS). Production of 124 5-ton 
truck underbodies will be completed by the end of July; 243 LVS 
kits will be completed by the end of August. It has taken a 
little longer on the LVS kits because, at the request of the 
warfighter, we were also adding the MAK-style doors and air 
conditioning to the LVSs. Both of those kits will be shipped 
via military air.
    Despite our successes to date, vehicle armor and other 
acquisitions have not been without impediments, and clearly 
there has been some incoherence between our desired timelines 
for fielding delivery and application of armor enhancements and 
other equipment and the timelines realized throughout the 
process. That is frustrating to me, as I know it is to you. 
While some progress is being made, we should look for 
enhancements to any process associated with time of war support 
to our forces with one common theme in mind: getting support 
and allowing responsible acquisition professionals to exercise 
the flexibility to expedite this support to the Marines.
    That said, the flexibility to hold below threshold program 
funds in time of war and for combat emergencies in excess of 
the current financial levels and percentages is an area I 
believe should be reviewed. We will continue to identify other 
processes as well.
    We are grateful to the committee for their rapid 
acquisition authority to respond to combat emergencies 
legislation in last year's bill. We used that to procure 27 
Cougar vehicles, which is a heavily armored vehicle, to enhance 
the survivability of our Explosive Ordnance Disposal (EOD) 
Marines against IEDs. Clearly, the legislation is a success 
story, as I believe also is our urgent Urgent, Universal Needs 
Statement (U-UNS) process inside the Marine Corps, where we 
pride ourselves on meeting the needs of the warfighter.
    Together, the Congress and the Corps are collectively 
realizing great successes in support of the warfighter by 
reducing the span of time between the identification of 
requirements and fielding to the force.
    In closing, I would like to thank you again, Mr. Chairman, 
and the distinguished Members of the committee for all that you 
have done in support of our Marines and service members 
deployed in harm's way.
    With respect to the timeline, sir, I am unaware of the 15 
February meeting, but certainly I am well aware of our meeting 
on the 21<SUP>st</SUP>. At that time, we undertook to determine 
that steel. We gave that to the Army Materiel Command (AMC) in 
theater to determine how best to cut, what their capability 
was, and to ultimately let the contract.
    In parallel with that, because we knew we didn't control 
all of that process, we accelerated and have now completed the 
assembly of additional 400 underbodies that are part of our 
Marine Armor Kit. They are in theater today, less 28 which are 
still to be en route. So we have not stood still.
    And while we have one alternative, we pursued a second to 
make sure, as you said, that the absolute best--and that MAK 
underbody is the absolute best, short of an M1114 that we can 
put out there for our young Marines on the ground.
    And I would at this time ask General Catto if he has any 
additional comments to add, sir.
    [The joint prepared statement of General Nyland and General 
Catto can be found in the Appendix on page 49.]

 STATEMENT OF MAJ. GEN. (SELECT) WILLIAM D. CATTO, COMMANDING 
    GENERAL, MARINE CORPS SYSTEMS COMMAND, U.S. MARINE CORPS

    General Catto. Sir, I understand your angst on the lack of 
performance on the AMC contract. Mr. Chairman, I understand 
your angst on the slowness with the completion of the rocker 
panels on the AMC contract in Kuwait. That is my 
responsibility, because I did not push them fast enough.
    As the Assistant Commandant said, we did pay attention to 
your concern for underbodies, and because I did not have direct 
control of what happened in that contracting office, we did 
have a parallel path. I assure you that we were paying 
attention.
    Again, this is a lack of leadership on my part for not 
paying more attention to that specific contract.
    [The joint prepared statement of General Catto and General 
Nyland can be found in the Appendix on page 49.]
    The Chairman. Gentlemen, thank you. Let's go to the--when 
the gunny requested that we start putting this underarmor on, 
came up with this program, all he needed at that point, all we 
needed in those units in the field was the steel. The steel was 
only a couple of hundred miles away in Kuwait.
    Now, obviously, because you can see that he cut panels and 
his own motor operation installed those panels, they were able 
to do that without having a cutting contract. So you had eight 
weeks that transpired, General Nyland, between our conversation 
and this letting of this contract today.
    But one thing that you have pointed out in your statement 
is--I think the lesson for us, and it must be the lesson for 
you; and that is this: How long have the triple-stacked mines 
been a problem in the western AO?
    General Nyland. I think the triple-stacked mines, to the 
best of my knowledge, it is within about the last four to six 
months that we have started to see that.
    The Chairman. Okay. When will you have a full complement of 
underbodies, whether it is manifested in the 1114 or the new 
underbodies for all of the Marine HMMWVs in theater?
    General Nyland. Right now, we have 372 on the ground plus 
330 full MAK kits on the ground. We have already made 700 
maximum on the ground.
    We have 500 up-armored HMMWVs and another 400 that will be 
delivered by September. As quickly as we can hang the armor on 
the underside, and we have completed over 300 last month, that 
will be the determiner of whether it ties up exactly with the 
last delivery of 1114 in September or at what point that will 
be.
    The Chairman. Okay. So at what point would you say, would 
you estimate that you will have a full-up underbody for the 
operational vehicles in Iraq?
    General Nyland. No later than December.
    The Chairman. Okay. That is my point. The triple-stacked 
mines started occurring early this year, as you said, a move by 
a creative and adaptive enemy, although a mine is not 
necessarily a profound change in warfare. But they started to 
show up on the battlefield. Our reaction to those, to have our 
Marines protected, will be roughly one year later.
    Now, if we had gotten together and come up with a creative 
way to get some steel, some RHA steel, good, solid, high-
quality steel underneath those vehicles by rolling out that 
steel to the AO, getting it out to the motor pool, getting a 
design out--and if you didn't like what the gunny designed, you 
could have designed something else--had a team of engineers get 
on that thing immediately, we could have moved RHA steel out 
and had--if I could ask the staff to go back to the picture of 
the side on--bolt-ons there on the vehicles.
    Put that one. But then put up the picture of the HMMWV that 
has got the side panels on it.
    Okay, we could have had those, General Nyland and General 
Catto, we could have had those on by having them done in the 
field by simply supplying about four major elements. In fact, 
the gunny listed them when he sent his recommendation.
    Steel, we had the steel just a couple hundred miles away. 
You put them on a flatbed, you run them up on a convoy. RHA 
steel. Steel.
    Bolts, you need to have good strong bolts.
    Plasma cutters and tips on the plasma cutters.
    And we could have moved those things up into theater and 
had an emergency order to get those things underneath the 
vehicles back at the beginning of this year.
    Now, as soon as you bring the kits on, obviously you can 
put a socket wrench on those, take them right off, they don't 
prejudice you at all. They don't hurt you in terms of the kits. 
They don't slow down the kits coming, but we can't meet this 
rapid evolution of threats.
    And, again, putting mines on roads isn't necessarily the 
height of creativity. It is something that the enemy will do. 
But you can't meet a change of threat that can happen in a week 
or a couple of days or simply show up on the battlefield with a 
one-year plan to protect and react against because what that 
means is the people who get in, who are operating on the first 
part of that year and the middle part of that year and the last 
of the year, before you get everything full up, are going to 
take more hits than they would otherwise. That is the point.
    And I think that is the connection that we are going to 
have to make between the warfighter, which I think is 
represented by that, and the bureaucracy, which is represented 
by you and us. And I would hope that we embark on this program 
right now.
    What do you think?
    General Nyland. Sir, I agree. We owe those young Marines 
and all the other members of our service over there the best. I 
would simply say that we have actually been manufacturing 
underbodies for over a year. The 11<SUP>th</SUP> Marine 
Expeditionary Unit (MEU), 24<SUP>th</SUP> MEU, 31<SUP>st</SUP> 
MEU all went ashore with underbody vehicles. We had a plan in 
place for an underbody that was part of a whole kit. While the 
gunny's solution is a solution, it does not meet the rigor of 
the whole--of the MAK armor kit. And in some cases, the way it 
was installed, it would not allow that vehicle later to be 
modified, to put the kit on, to provide the all-around.
    I would be remiss if I didn't point out that the majority 
of the IED blasts still are a side blasts. So we have to get 
after the belly blast as well, but we can't ignore the side 
blast either.
    The Chairman. Well, that is, if you look at what the gunny 
had there, General, that is a side view. That is a piece of 
side armor that he put on that melds with the steel door that 
takes on side blasts.
    But my point is--and I think it is well illustrated by the 
picture; he had the picture of the wheel well where you had 
nothing. That wheel well is gone, and presumably the legs of 
the driver who were sitting behind it are gone also.
    Then he had a picture of the wheel well where he put up his 
steel protect, and although a lot of that HMMWV is blown away, 
the steel is still there and the driver escaped with a couple 
of broken teeth and a broken leg.
    My point is, once that IED goes off, this is all physics. 
You have projectiles of certain mass traveling at a certain 
velocity. You either have something between them and your 
Marines or you don't.
    And plans don't suffice. And there is no bureaucracy in the 
world that can move everything, going through the contracting 
process, and then going through the long--sometimes the appeals 
process for the competitors that lose the competition--and then 
going through all of the hoops and the hurdles that we have 
back here that ultimately gets things out to theater five, six, 
seven, eight, nine months, a year after the threat has evolved 
that they are having to meet. They can move much faster than 
that.
    What you have to do is move to the field as quickly as 
possible. And I think we all agree you have got to do 
everything that is possible.
    Certainly that piece of steel that the gunny put on, these 
pieces of steel he put on these HMMWVs aren't pretty. They are 
going to leave bolt holes that you are probably going to have 
to solder over. But what they did do is, they filled in the gap 
between the time when the kit vehicles would arrive or when new 
M1114s would arrive, and they saved Marines and they saved 
legs. And we should encourage that. We should pursue it. We 
should aggressively be on it.
    I hope you agree with that, General.
    General Nyland. Yes, sir. And we are on it.
    As you know, the 372 underbodies that we have over there, 
that are on the ground now, are designed to be put on at the 
unit level so they don't have to wait to come to the facility.
    The Chairman. Okay. Thank you.
    Mr. Skelton.
    Mr. Skelton. General Nyland, I have seen reports that 
indicate an increased underbody threat from mines and IEDs in 
Iraq. The HMMWV is a vehicle which was not designed to 
withstand that type of threat; am I correct?
    General Nyland. Yes, sir.
    Mr. Skelton. What do you believe is the future for the 
HMMWV as a vehicle for our military?
    General Nyland. Sir, I believe at the present time our 
spiral development of the MAK kit is another interim step on 
the way to what we understand clearly the Cadillac is, which is 
the M1114 or the M1116. And we have an effort ongoing right now 
with our commanders on the ground to identify what their 
requirement would be to go to a 100 percent M1114/M1116 fleet.
    Where do we go in the future, is another interesting 
question. We rapidly fielded 27 of the Cougar vehicles, which 
is a V-bottom-type vehicle; and I think we are going to have to 
look more for two things: One, from our science and technology 
community, we need an armor that is lightweight and easily 
applied. And the second will be is something along the lines of 
these heavily armored vehicles that will ultimately take the 
place, not just for EOD, but potentially as tactical vehicles.
    We have a number of efforts trying to determine what is the 
right vehicle for the future. I think it is pretty clear that a 
flat bottom vehicle is not even at the Cadillac level of the 
M1114. We have a prototype that hopefully will be available 
next month called the Ultra Armored Patrol Vehicle that we will 
be able to take a look at partnering with both industry and 
NASCAR. But I think that the utility, if this is the threat of 
the future, the long-term utility of the HMMWV has to be 
questioned. We have to take continued steps to find what will 
defeat this kind of a threat.
    Mr. Skelton. It seems to me that it is imperative that this 
be put on the fast track. And normally, something like this is 
going to end up taking 10 or 15 years. I don't think the troops 
can wait 10 or 15 years.
    How do we get it on a faster track?
    General Nyland. Sir, I think we will take that for action.
    We are also working very closely with the joint IED/
Integrated Product Team (IPT), which has also capitalized on 
this development with the Cougar. We have purchased 122 more of 
those. We are looking, as I mentioned, at the Ultra. We are 
looking internal to the Marine Corps at what is the next 
tactical vehicle, and we will continue to work that.
    And I might ask General Catto to comment on that because 
much of that work is done at Systems Command.
    Mr. Skelton. Well, what we would like to know, and I know 
the Chairman would like to know as well, could you get back to 
us within a reasonable length of time as to proposals, so this 
doesn't stretch on some 10 or 15 years.
    General Nyland. Yes, sir, absolutely.
    Mr. Skelton. A lot of wonderful young people are getting 
injured, and if the HMMWV, even with all the kits on it, 
doesn't cut the mustard, what does? And we need to know; it is 
our job to provide and maintain.
    General Catto, do you have a comment?
    General Catto. Congressman Skelton, for a Commercial-Off-
the-Shelf (COTS) vehicle, something that we take basically off 
the marketplace like the Ultra vehicle that General Nyland 
talked about, we anticipate about a two-year effort for that, 
somewhere in the neighborhood of $7 to $10 million Research and 
Development (R&D), and then the procurement cost after that.
    You are correct. If we develop a new vehicle from scratch, 
it is probably a five-year effort.
    Mr. Skelton. We can't wait that long.
    Thank you, Mr. Chairman.
    The Chairman. I thank the gentleman. The gentleman from 
Pennsylvania, the chairman of Air/Land, Mr. Weldon.
    Mr. Weldon. Mr. Chairman, first I want to thank you for 
having this hearing.
    I want to thank you both for testifying and for your 
leadership.
    I just led a delegation into the theater over Memorial Day, 
and six of us, along with Senator Biden, visited with the 
troops in Baghdad and Fallujah; and our specific purpose was to 
observe the activities you just described to us in theater. And 
I would be candid with you in telling you, I am impressed. We 
were impressed. We were impressed with the attitude of the 
Marines doing the work and the capability that had been 
achieved. We saw some examples of some of our vehicles that had 
been hit.
    But I also want to tell you that there was more than one 
who mentioned the name of Duncan Hunter. And I told you this 
when I came back. It shouldn't take a Duncan Hunter to solve a 
problem with the up-armoring of our HMMWVs and our artillery in 
the field. And this is no offense to anyone in the service. But 
thank goodness we have a chairman who has made it a personal 
crusade, I think possibly because he served in this capacity 
and because he has two sons, one of whom has served in this 
theater, to make sure that we are taking the steps that are 
necessary.
    General, we have been talking about this issue for well 
over a year. We recognize there was additional money needed. It 
was this committee who went out in front of the White House and 
put $25 billion up on the table as the first supplemental when 
the Pentagon was balking at doing anything because it was an 
election year; and we persevered as Republicans and Democrats 
because we wanted you to have the flexibility and the resources 
to do whatever it would take.
    You will never meet with resistance from this committee to 
put the equipment immediately into the field. We will cut 
through the red tape. If there are problems in the procurement 
process or the process of buying or the technology of--as 
Duncan pointed out, these plasma torches, we will give that 
capability to you.
    But the point that Duncan is making is that we had an 
interim solution identified months ago. And it is going to take 
a year before we have all of that capability in theater. And to 
this committee I would say, Democrats and Republicans, that is 
just unacceptable.
    I have attended several Marine funerals over the past six 
months, brave Marines who were a part of a unit from my 
district, one of whom had just been married three days before 
he was deployed. And I know you have attended funerals of 
friends of yours and the sons and daughters of your friends.
    What this hearing is designed to say is that we need 
immediate response. We are in a changing threat environment 
today. This is a threat environment that changes, I guess, by 
the day.
    When I was there, we were seeing additional projectile 
capability that had the ability to pierce even our best armor. 
And so there is no protection against that right now because 
the enemy has come up with a new capability that we still can't 
meet. And that is why we have got to have this combination of 
technology and application directly applied, along with the 
ingenuity of the troops in the field to provide whatever short-
term solutions are needed.
    I am not totally comfortable that we have that right now, 
and I say that acknowledging that I was very impressed with 
what is taking place in the theater. I was impressed with the 
up-armoring, the attitude of the contractors working side by 
side with our military personnel, the rate of production that 
was really impressive, the facilities that were being used to 
do this work and the attitude of the Marines that they would 
get the job done.
    But I think if there is one statement that has to come out 
of this hearing to you, it is, there is no impediment to you 
getting what you need to get to our soldiers immediately--not 
six months from now. If there is a problem with some piece of 
legislation or some requirement or some dollar amount, what the 
Chairman is saying--and I know Ranking Member Skelton feels the 
same way--we will solve that problem for you. Let's be the 
people that take that and deal with the bureaucracy.
    But as the leader of our warfighters, we need you to make 
sure that we are doing everything humanly possible to protect 
these young Marines, which I know is the same objective that 
you have. We do not want the bureaucracy to get in the way.
    I read a statement today where a reporter is alleging that 
some piece of legislation is hampering our effort in the area 
of body armor. Well, if that is the case, we want the military 
to come and tell us if it is a problem, not wait until after 
the fact and say, Oh, Congress passed this bill or that bill or 
this restriction or that restriction.
    The lives of our troops, as it is with you, is our number 
one priority; and we will do whatever it takes to give you the 
resources, but we do expect action to take place immediately.
    And so, again I want to thank you. I don't have any 
questions. I think you get the tone of the purpose of this 
hearing. And I can tell you no one is more sincere on these 
issues than this guy sitting right here.
    And there are people who criticize the Congress and say, 
Well, the Congress doesn't really have any feel for what is 
going on in theater. His son was in theater. Were both of your 
sons in theater? One of them was in theater. He understands. As 
to my other colleagues, Congressman Wilson's son has been in 
theater. My nephews have been in theater.
    We want to give the capability immediately, whatever it 
takes. There are no limitations. And so I would just ask you to 
consider that as we move forward, especially where the changes 
you are going to need to deal with these enhanced artillery 
capabilities that are piercing even our best armored 
capability.
    Thank you.
    General Nyland. Sir, thank you. And you are correct. Our 
goals are exactly the same, and I thank you for your continued 
support, sir.
    The Chairman. Thank the gentleman.
    Incidentally, we passed this law last year, that this 
committee wrote, that gives to the Secretary of Defense 
(SECDEF) the ability to waive every law on the books of the 
United States of America and simply buy things if you are 
taking casualties in combat, which we are, and the procurement 
item is needed to address those casualties. So I haven't seen 
the newspaper article the gentleman's talking about, but we 
have a law that allows you to waive everything.
    SECDEF's got to sign that. He has got to certify it, but 
certainly there is nothing--if the Marines made a request for 
the Secretary of Defense to sign a certification for a vital 
warfighting component, he is going to do it.
    I thank the gentleman.
    Gentleman from Massachusetts, Mr. Meehan.
    Mr. Meehan. Thank you, Mr. Chairman.
    Thank you, General, for appearing. It seems to me, after 
all we have been through on the issue of armor, it is just 
really a disappointment to see that we still can't seem to 
manage a supply chain.
    I remember last December we were told by Secretary Rumsfeld 
that a lack of armor on HMMWVs was a question of physics and 
that there was an insurmountable supply. We discovered a few 
days later, Armor Holdings had actually--who is a supplier--
actually told the Defense Department months earlier that they 
could, in fact, increase their supply and increase production.
    So the Chairman has laid out here--in April, Pentagon 
officials were aware of 1,000 of the three-eighth-inch armor 
for use on the underbody for the Marine Corps. And now we are 
being told that we will have this done by the end of August. It 
seems to me that a four-month turnaround on what the Pentagon 
itself characterized as an urgent requirement is just too long. 
I mean, to take four months for a requirement that is described 
as ``battlefield urgent'' seems to me to be an embarrassment.
    Add that to the fact that these three-eighth-inch sheets 
are over in Kuwait. It just seems inexcusable and indefensible 
to me.
    General, the Government Accountability Office (GAO) issued 
a report and faulted the Pentagon for the shortfall in up-
armored HMMWVs because it said that it didn't ramp up-armor 
protection production to the maximum level. And this GAO report 
pointed to the Pentagon's failure to release funds in a timely 
and predictable manner, even though this committee and the 
Congress made the money available.
    They recommended two things to the Army. One is to update 
its war reserve requirements at least every year to account for 
the change in operational tempo; and second, to develop 
computer models that can estimate supply requirements for 
deploying units as part of prewar planning.
    I am curious as to the degree to which the Marine Corps has 
adopted these practices, or might adopt them, in order to 
better deal with planning and programming inventories.
    General Nyland. Yes, sir. Let me start and then I will ask 
General Catto to comment as well.
    We recently sent the Inspector General of the Marine Corps 
over to Iraq to understand what is the use of the equipment on 
the ground and how that plays against what we call our 
equipment density list. And what he came back and told us, in 
essence, was, in many ways items that we have over there now, 
the Marines are using and require almost double what we use in 
our old equipment density list.
    This is a new conflict. There are wide areas. There are 
more mobility requirements. There are more weapons 
requirements. So as a result of that, we have come back and we 
are taking that to look and adapt, is this what the whole 
Marine Corps needs to do to understand the right levels of 
tables of equipment given this as the prospective new threat in 
the world. So we are working that very hard right now and, in 
fact, have already put out a series of directives and taskers 
on that.
    To speak more appropriately to using modeling to help with 
us that in the future, I would ask General Catto from the 
Systems Command to comment.
    General Catto. I have not seen this GAO report. I can tell 
you that we do use modeling to determine our ammunition levels 
and our use on the vehicles in terms of how much life that we 
take out of them.
    If I may comment on your statement about four months being 
too long for acquisition, you know, it really depends on what 
we are buying. If it is an article that exists, whether it is 
Wiley X glasses or earplugs or even armor for vehicles--you 
know, we armored our entire vehicle fleet of over 3,000 
vehicles in less than four months before we went into OIF the 
second time.
    If it is a new vehicle or something that doesn't exist, it 
is going to take time to develop it and do the testing, et 
cetera. So you know, the four-month time frame can be good or 
bad, depending upon what particular item we are looking at.
    Mr. Meehan. So you think what the Chairman laid out here, 
starting with a meeting in February, going to April, August, 
that that is a reasonable period of time to get the underbelly?
    General Catto. No, we are not happy with the underbody 
piece. I understand that.
    But as I said, sometimes you know when you say, four months 
is too long, well, if it is an item that does not exist and you 
have to develop it, you know, a new weapon or a new vehicle, 
you know, as we talked about earlier, sometimes that just takes 
time.
    Mr. Meehan. But the instance that I am citing is, they were 
over in Kuwait. It just seems to me that the Members of this 
committee that have visited Iraq, that visit Walter Reed 
Hospital, that see the nature of the injuries and then see a 
presentation, as the Chairman has made, we just have to do 
better.
    And Members of this committee work hard to try to get the 
services the money that they need. This inspector general's 
report for the Marines, they estimate that 30,000 Marines in 
Iraq need twice as many heavy machine guns, more fully 
protected armored vehicles, more communications equipment. This 
committee wants to provide whatever our men and women need, and 
we are doing it very much in a bipartisan way with no regard to 
politics, just trying to get people what they need.
    But it seems continually, at different points in time 
during this conflict in Iraq, representations are made that we 
are fully up-armored, and then we go into theater and see 
improvements that could be made to underbellies, or the kits 
aren't getting there quickly enough. And it is really 
frustrating, particularly when you look at the nature of the 
injuries of people that come home without arms and without 
legs, who are--who, it seems to many of the people of this 
committee, would be in a much better position if we could 
quickly make decisions and get these up-armored or get, in this 
case, the underbellies.
    It just seems that it is taking the bureaucracy too long 
and we need to do better. We absolutely need to do better.
    General Nyland. Sir, we certainly agree with that. And we 
are very disappointed in the way that went with that one sheet 
of steel.
    We are absolutely pleased that we were able to accelerate 
our own making and delivery of those underbodies, which can be 
installed at the unit level. And now we have over almost 400 on 
the ground, as we speak today.
    Mr. Meehan. And, Mr. Chairman, I thank you for that 
presentation. It was an excellent presentation.
    The Chairman. I thank the gentleman.
    The gentleman from Missouri, Mr. Akin.
    Mr. Akin. Thank you, Mr. Chairman. And I very much 
appreciate the hearing as well. I am sorry I had to step out. 
We had a couple of things I had, so I missed a little bit about 
what was going on.
    I guess a concern that I had, having been in theater about, 
I guess, a little more than a month, maybe six weeks ago or so, 
was the fact that the top leadership in Iraq was saying to us 
there is nothing going out in the field that is either an up-
armored HMMWV or a Level two. So I go out and the same day see 
a HMMWV where the driver just got killed. And it was sort of 
what I called ``good old boy armor'' in a way. I don't think we 
have a name for that exactly.
    So I started asking questions, and what I found out was 
that we have got up-armored HMMWVs, and then we have got about 
five different levels of Level two, so anything that has got 
anything bolted on it is some kind of a Level two. And this 
particular vehicle did not have the protection in the rocker--
not the rocker panel, but the post between the doors--and he 
had shrapnel coming through there that killed the driver.
    It did have some other pieces of armor protection on it, so 
the guys in the back were not hurt. And you could see where the 
shrapnel had gone through the first layer and had been stopped 
by the second layer of armor there. But there were an awful lot 
of variations, at least five different types of Level two 
armor.
    And then I further got concerned when I heard that the 
Marines were taking something like 43 percent of the casualties 
and had five percent of the up-armored HMMWVs.
    Somehow or other--I understand the nature, if I were an 
Army guy and I were in the southern part and there wasn't a lot 
going on and you send me some up-armored HMMWVs, I am going to 
keep them because I want to take care of my own guys. That is 
just natural for us to do that.
    But somehow that distribution has to be adjusted for where 
the action is. And I haven't heard the plan as to how that is 
going to take place yet.
    So I guess, from both a concern, but also I would like to 
know how are we going to make sure. The two things that--and I 
typically ask this even when I am going to Iraq or other 
places: What are the one or two things that would be the most 
helpful for you? And it kind of surprised me after all this 
talk for years, I want more up-armored HMMWVs is what the 
leadership was saying to me. This is mostly in the Fallujah.
    I said, What is your second-most thing? He said, The 
second-most thing actually kind of comes up with up-armored 
HMMWVs, which is better longer-range radios because if we have 
better radios, we can get further out into the field and 
communicate, and we can push our missions further. But he said 
the up-armored HMMWVs--I think, if I remember this right--had 
some of the better radios in them and some of the other things. 
The other radios weren't much good; you couldn't trust them 
very far.
    So that is our sense of frustration. Did you present a plan 
as to how we are going to get more up-armored HMMWVs to the 
places where the action is.
    General Nyland. Yes, sir. And if I might, I would answer 
that in two parts.
    The first one is one that we can maybe help influence, but 
is really the purview of the operational commander; and that 
would be the distribution to put more where the higher threat 
is. And we are pursuing that with the operational commander to 
look at a review. What is the threat theater-wide, and does it 
make sense then perhaps to reorient some of the assets out 
there?
    In fact, I will be going to Iraq this afternoon and I will 
be talking to General Vines and to General Johnson.
    On the second piece----
    Mr. Akin. On that point, would it help you any if this 
committee were to--I mean, can we provide some extra incentive 
to try and get something like that going?
    General Nyland. Sir, I believe that the Chairman has spoken 
with the Secretary of Defense on this issue already, and I 
intend to bring it up to the extent that I can as a Title 10 
guy with the operational commanders.
    The Chairman. If the gentleman will yield, we have been 
talking to the Secretary and to the combatant commanders, and 
we probably need to have a discussion off the--in a classified 
way; and we will do that after we get finished with this open 
hearing, the gentleman and I and anybody else who is interested 
in how this is progressing.
    But there is a work on distribution right now of up-armored 
HMMWVs.
    General Nyland. And sir, to the second part, we now have 
roughly 500 of the up-armored HMMWVs. We have another roughly 
400 that will be delivered by September, and our ground combat 
commander and MEF commander has undertaken the review to tell 
us how many vehicles would he need to go to, in essence, a 100 
percent M1114/M1116 up-armored fleet. And we think that is 
going to be in the vicinity of about 2,600 vehicles.
    Whether that is mitigated by any distribution or not 
remains to be seen. But we are trying to finalize that, pin 
that down, so that we can put that in the 2006 request and move 
toward that all-Cadillac 1114/1116 fleet.
    The Chairman. Thank the gentleman.
    The gentleman from Arkansas, Dr. Snyder.
    Dr. Snyder. Thank you, Mr. Chairman. I want to thank you 
for not just this hearing, but for the work that has gone on by 
not just you, but I know the staff has been very much involved. 
I think it is the kind of activity that we can contribute as a 
legislative body in a time of war.
    As you know, General, there is a tremendous rumor mill in 
the military, and we are all part of that. And we all have our 
friends and constituents, and some Members have family members. 
And we hear from people. And the sad thing is that, a lot of 
times, we hear things, we ask about it--and I won't give you an 
overstatement and say a lot of times--there have been times 
when we hear these rumors, or hear reports from our 
constituents, ask about them, are assured nothing is wrong, and 
then months later it turns out, no, it was right to begin with. 
And I think the frustration at this end of things is that we 
ask these questions trying to be helpful, and it seems like 
things get delayed for several months.
    I had a specific situation where I heard there was a 
problem in getting replacement parts, all kinds of replacement 
parts. I was assured at that table that, no, that was not a 
problem, that the anecdote I heard was spotty. Finally there 
was a study done, and it said for the entire Baghdad area there 
was a terrible problem with supplying parts. So I think that is 
part of the frustration that you are hearing about today.
    I wanted to ask you, if I could, about this report, the 
inspector general's report. The Boston Globe has a story about 
it today, U.S. Marine Corps Ground Equipment in Iraq, Readiness 
Assessment. What is your comment about that report?
    General Nyland. Sir, actually we dispatched the inspector 
general over to get that, and quite honestly, I think it is a 
good news story because it validates exactly what we have been 
saying and supports the great support that this committee has 
given us to understand what we really need in the way of 
equipment.
    I would say that the Globe story misinterprets that, at 
least in my view. The story seems to indicate they need twice 
as much. The reality is they have twice as much in Iraq. The 
question is do we need twice as much for the remainder of the 
Marine Corps, if this is the kind of theater and the kind of 
threat that we will see in the future.
    So my assessment of that report is it was very well done. 
It is very timely. It is helping us assess what exactly are the 
types of equipment, be it rolling stock or weapons, or 
communications gear, that what we think the Marine Corps will 
need to be able to provide a relevant ready combat force for 
the Nation in the future.
    Dr. Snyder. Was there a specific reason why the Marine 
Corps did not comment to the Boston Globe? The last paragraph 
says, Officials in the Marine Corps Headquarters in Systems 
Command declined to comment on the Inspector General (IG) 
report, saying they were not yet familiar enough with its 
findings to respond to questions.
    When you have the press asking questions at a time of war 
about what you are painting as a good news story, I want to ask 
you more about that. Is there a simple reason why there was no 
response to a reporter's questions about what clearly is an 
important report?
    General Nyland. Sir, I do not know, and I asked that 
question. I typed out that e-mail as I came to the hearing to 
find out why in the world nobody either had the knowledge or 
the comment. The Commandant was briefed on this report. And we 
made the decision then--in fact I believe it was on the 
8<SUP>th</SUP> of June, copies were provided to the armed 
services committees, to the readiness members, because this 
does, in fact, substantiate what the Commandant and the rest of 
the leadership have indicated our needs are. Why we didn't have 
a knowledgeable person--I don't know where that call went, I 
don't know who provided that answer, but I will find out.
    Dr. Snyder. Because when you say it is a good news story, I 
am not entirely convinced it is a good news story that the 
Boston Globe story is not right. Well, what do we expect them 
to do if the Marine Corps doesn't comment on the report? It 
doesn't make any sense.
    General Nyland. Yes, sir.
    Dr. Snyder. I want to ask you again, we have very limited 
time, one of the conclusions I will read from the report, most 
inventory logistics and security battalions require 
approximately twice the number of 50-caliber machine guns and 
more M240G and MK-19 machine guns than they would normally 
possess. Now, tell me how that is a good news story for this 
report to conclude that--this is not like we are talking about 
some, you know, refrigerator for storing water supplies. They 
are talking about 50-caliber machine guns.
    General Nyland. Yes, sir. What that report is saying is the 
Marines on the ground over there have double what their table 
of equipment is today. So the way I see that is good news is 
that tells me if the nature of war and the threat has changed, 
and this is where I am going in the future, then I better 
change the table of equipment for all the Marine Corps.
    So that is not written to say there is a shortage. It is to 
say we have taken from the other of the Marine Corps to ensure 
that they on the ground have double what we used to think they 
would need in their table of equipment. So it is a validation 
of what it takes to fight this new threat in a sustained land 
campaign.
    Dr. Snyder. The sentence in here, the draft EDL, or 
equipment density left at 16 February is understated in meeting 
current and future equipment requirements.
    General Nyland. I believe it goes on to say that it is 
updated by tomb F which we now have, and that the tomb F is 
accurate.
    Dr. Snyder. So the way you all have been looking at 
equipment needs over the last year or two or months ahead, if 
you were following those requirements, your Marines would not 
have what they need. But this report is coming back and saying 
we have gone and looked; the Marines are using more 50-caliber 
machines guns, they are using more equipment. We have got a--I 
guess the drum major has to get ahead of the parade because the 
troops are responding appropriately to their equipment needs. 
Is that a fair way of saying that?
    General Nyland. In essence, yes, sir. What I am saying is 
that we, initially, went to war with our table of equipment. We 
found the Marines needed more. We gave that to them. That ends 
up being about double what the old table of equipment was. We 
now have seen that that is what is required, and that now gives 
us the ability, then, if that is going to be the fight of the 
future, the threat, and the ability to control it, then we 
better be looking at our equipment density list across the 
Marine Corps to change those tables of equipments.
    Dr. Snyder. Just one final comment. There is a series of 
charts in there, if I am reading it right, say the readiness 
levels of a lot of that equipment is not going to be what you 
all wanted it to be as time goes by. And if the Congress needs 
to--you may have a comment on that, and it may be in line with 
what Chairman Hunter said. If there is things we need to hear 
from you about how we can help with that, because we don't 
want, you know, four out of ten vehicles not to be operating 
properly in an unsafe manner. If you have any comment on that, 
I would be glad to hear that.
    General Nyland. I do. Yes, sir, and I appreciate your 
comments. In fact, I believe we are scheduled to brief the 
staff on that report in detail on the 23<SUP>rd</SUP>, which is 
a Thursday. We will use that to substantiate what we need and 
any 20O6 supplemental to ensure that the readiness does not 
deteriorate. We are already looking at vehicles for 
contracting, and different support that we can put in, as well 
as changing the rotation policy on some of the equipment to 
ensure that the readiness, those in the fight, have the best 
that is available for them. But I thank you very much for your 
support, sir, and we will, I believe it is this Thursday, brief 
the committee staff on that.
    Dr. Snyder. Thank you, Mr. Chairman.
    The Chairman. Thank the gentleman.
    Gentleman from Colorado Mr. Hefley.
    Mr. Hefley. Thank you, Mr. Chairman.
    I think you see the level of frustration on the part of the 
committee, and maybe you feel some of it, too, but I just don't 
understand. If you watch the History Channel just a little bit, 
you see hundreds of B-17s rolling off the assembly line at a 
pace that no one ever imagined you could build airplanes. Same 
way with ships during that time, because we were in war, and 
there was a sense of urgency because we were in war.
    I guess it raises the question in my mind, we are talking 
about putting a little steel on a car. I guess it raises a 
question in my mind, are we really operating this like we are 
at war with that kind of a sense of urgency?
    I would like to go back to Chairman Hunter's original 
premise, which there has been some attempt to answer, but I 
still don't understand it. You have got a gunny sergeant who 
comes up with a pretty good plan, not a perfect plan, doesn't 
do everything you would like it to do, but it does help, and it 
does save some lives and some injuries. And it takes an 
inordinate amount of time for anybody to deal with that plan.
    Why didn't the first person that saw that plan in the 
command structure say, you bet it is going to help, do it; and 
what do you need to do it with; and let's get that steel out of 
Kuwait, and let's get you the plasma torches, and let's get 
this thing done? It is not going to be perfect. It is not going 
look like the kind of armor we were going to bolt on later, but 
it still is going to help. How in the world could we have 
waited this long, and let them get along with inferior 
equipment, and endanger those lives when there was a way to 
help?
    I was out at Ramstein the other day, and I was visiting 
with some of our wounded troops, and I got one young man just 
coming out of the operating room all bandaged up. And I said to 
him, soldier, are you going to stay in, or are you going to get 
out? He said, I am staying in if they will let me. He said, we 
have got work to do.
    That is the attitude they have. Why don't we in this 
committee and in your structure over there at the Pentagon, why 
don't we have that attitude? We have work to do, and whatever 
you need to do it, we are going to provide it to you. Why 
didn't we follow up on this gunny sergeant? That would be my 
first question.
    General Nyland. Yes, sir. I certainly agree. These are 
magnificent young men and women. I go to Bethesda and Walter 
Reed regularly to visit them as well. And we owe them this.
    I think the issue with this particular case is we can't 
lose sight that we had parallel efforts. Now, granted we took 
our eye off the ball on this rolled hard steel and the contract 
that we did not control, but at the same time we accelerated 
these underbodies so that they could be put over there, and 
they will provide even better protection, and they are 
installable at the unit level, and it doesn't take a really 
skilled artisan to do that. I think that is a huge step to be 
able to go toward this, and we have been building these 
underbodies since last fall.
    So while that one piece--and I acknowledge we took our eye 
off the ball on that contract taking two months to get let, but 
we had a parallel course at the same time because we knew we 
didn't control that process. And we have, in fact, now almost 
400 underbodies on the ground, for the purpose of installation 
at the unit level, to put the protection on there that is 
superior to everything except for the 1114, the armored HMMWV 
vehicle.
    Mr. Hefley. It took a long time to do that, and does the 
Marine Corps--I know you are very structured, and you expect 
your young Marines to follow your rules without question, but 
does the Marine Corps encourage thinking out of the box and 
innovation? And we ought to be very proud of this gunny 
sergeant who saw a problem and set about to solve it. Again, he 
didn't have the equipment of a manufacturing company to do it, 
and he didn't have any contract to be let. He just went about 
doing it. Do you encourage that, or is that something that is 
discouraged?
    General Nyland. Absolutely encouraged. As a matter of fact, 
the Marine Armor Kit was developed not by us back here, but in 
concert with the warfighter. This is what we see that we need, 
this is where the threat is. That was a vehicle that is the 
third in three generations of armored vehicle all of which had 
been devised in concert with the warfighter. The warfighters 
came up with L-shaped doors that we put on the Level two 
vehicle. They have had input into this. What does it need to 
make it the best that we can make?
    So we absolutely encourage innovativeness. We have 
tremendous young men and women out there who provide us with 
great solutions to many things. I will tell you that some of 
their--some of the tactics, techniques and procedures that 
these young men and women come up with are tremendous. And we 
do, in fact, encourage that. And I would again say that every 
one of these vehicle armoring systems in the three generations 
that we have built have all been built with the warfighters' 
vote and input.
    Mr. Hefley. Thank very much, Mr. Chairman.
    The Chairman. Thank you very much.
    Gentlelady from Guam Mrs. Bordallo.
    Ms. Bordallo. I have no questions.
    The Chairman. The gentleman from Minnesota Mr. Kline.
    Mr. Kline. Thank you, Mr. Chairman. Thank you, gentlemen, 
for being here.
    The Chairman has said that we have warfighters and a 
bureaucracy, and we in this room are part of the bureaucracy. I 
suppose that is true to a certain extent. It is not my day to 
argue with the Chairman, so--but it seldom is.
    But I know that both of you are also warfighters. And, 
Spider, General Nyland, you are one of the last handful of 
Marines that are still wearing ribbons from Vietnam. And I know 
that both of you care about the Marines, as they were part of 
your family. They were part of my family, and I would argue by 
extension still are. And I know you care deeply, but as has 
been pointed out here again and again, we are kind of trapped 
in a system that has been developed over decades and was well 
suited, perhaps one might argue, for the Cold War period; a 
very lengthy system of planning, programming, budgeting, 
executing and defining requirements and verifying them in 2 or 
3 or 5 or 12 different places. And I think that what you are 
sensing from us, and certainly from me, is that we kind of 
haven't gotten out of that box.
    We are still trying to validate those requirements. We are 
still working through a contracting system that is mired in 
pages and pages and pages of Federal Acquisition Regulations 
and all sorts of conditions. And thanks to Chairman Hunter and 
the other Members of this committee, but I think fair to say 
principally the Chairman, we put into law a provision to allow 
you, us, to bypass all of that.
    I mean, it is fairly incredible if you think about it. And 
so we need to find a way, you at the table, we here, for 
whatever part we need to play, to make sure that we are taking 
advantage of that. And I know that because you have a 
bureaucracy that has been in place for decades, it is hard to 
get that through sometimes to the people who work for you and 
work for other services and work for OSD and work for all 
manner of agencies and bureaucracies in the Department of 
Defense. But somehow we have got to do it.
    So I would just beg you to, like the gunny, think out of 
the box, and when there is any hint that comes from the theater 
that there is a delay because of some acquisition problem, that 
we not let that slow us down for one minute.
    General Nyland. Yes, sir.
    Mr. Kline. And I know every gunny's idea isn't always a 
good one, too. I think I understand that, and most of the 
Members of the committee do, although most gunnies' ideas are 
pretty good, kind of got us to where we are today for the most 
part. But I don't know how to sort of beg you anymore and to 
say, do not let the system that we grew up in hold us back.
    General Nyland. Yes, sir.
    Mr. Kline. Don't let that happen.
    And so then I would ask you, is there anything, anything 
that you think is in the way now, because I know that Chairman 
Hunter and Ranking Member Skelton, all of us on this committee, 
we will do everything we can to get it out of the way so that 
we can get what we need. So if there is something that you need 
down in Quantico that is bubbling down there, or, General 
Catto, please tell us now, tell us tomorrow, but let's get out 
of the way, because you are warfighters. You have been there. I 
know you care. You have been frustrated in the field. I have 
been frustrated in the field. Let's don't let the habits of the 
last 50 years or 30 some years of service, don't let that get 
in the way of getting what we need because we used to do it 
that way. And to a large extent, we still--we still have to, 
but not if it is costing the lives of Marines or soldiers.
    General Nyland. Yes, sir.
    Mr. Kline. Please.
    General Nyland. Absolutely. And I could not begin to say 
anything better than thank you for your support, and we will 
provide you anything that we see as an obstacle. I would say 
thank you again for the rapid acquisition legislation. That was 
the only way we got that Cougar vehicle as fast as we did and 
got it over there and put it in the hands of our EOD Marines.
    I have to also say that there are some things that have 
been success stories inside the acquisition process. And I have 
seen Bill Catto turn around overnight the things that we have 
looked at, urgent needs from the warfighter with the Marine 
Requirements Oversight Council (MROC) that we have made a 
decision, put it on contract, and had it delivered in less than 
three weeks later, the advanced optical gun sight, the 
personnel radios. So we are looking for ways to do that.
    But you are right. There are probably still--and maybe 
General Catto can elucidate on them right now, and I can't, and 
I would like to take that part for the record--if there are any 
hurdles out there, we will come back to you with those hurdles 
so that we can remove them and get what we need to put in the 
hand of these great young Marines.
    Mr. Kline. Thank you.
    Thank you Mr. Chairman.
    The Chairman. Thank the gentleman.
    The gentleman from Florida Mr. Meek.
    Mr. Meek. Thank you, Mr. Chairman.
    Generals, I am glad you are here, both of you are here. It 
is kind of difficult because I can see if this committee or the 
Congress wasn't willing to give DOD what they need to be able 
to make things happen on behalf of the men and women in harm's 
way, and like my colleague just mentioned, all of you feel what 
we feel, and it is kind of difficult especially--and I have 
gone to Iraq and Walter Reed and Bethesda and had an 
opportunity to see these patriots, even in Germany, say that 
there are ready to go back if they could. But many of them 
can't because in many ways somewhere along the line they have 
been failed as relates to equipment. And we know, and I know, 
that we are every day working to resolve that issue. And it is 
almost at the point that everything has been said, just 
everybody everyone hasn't said it.
    But I don't know if you are familiar with the article that 
came out in New York Times about Marines from Iraq sounding off 
about wanting armor and men, but it goes on somewhere in the 
second paragraph, and something that is very disturbing to me 
as Member of the committee, we are sitting out here--we are 
sitting out here in the open, and as easy targets for everyone, 
one Corporal Wynn said of Centerville, Texas. Said of the 
shortages, we complain about it every day to everybody we 
could. They tell us they are listening, but we don't see it. It 
goes on to say--talks about the leaders and what is coming, and 
then it says, the Pentagon officials say that they don't know 
how many more--I mean, how many of more than 1,500 U.S. troops 
that have died in war had insufficient protective gear.
    First of all, that statement is probably not just dealing 
with the whole up-armor or undergurney issue of the HMMWV, but 
it is disturbing for so many Congressional Delegations (CODELs) 
that go over, so many Members of Congress, you are going over 
there after this hearing; so much of an effort, legislation 
that has been passed as it relates to rapid acquisitioning, 
giving those that are in a uniform and wearing stars to be able 
to make those decisions right here, right now on behalf of 
those troops, and it is still not happening in a way that we 
would like for it to happen.
    I am not saying it is not happening. We are making progress 
talking to the folks on the ground. We don't send a vehicle out 
unless it is armored totally. But we are still hearing now, you 
know, years--in the early years of combat, and I firmly believe 
as a Member of this committee, even though there is great 
discussion on the Hill about exit strategy, what is going to 
happen and how we are going to do it, that this is Iraq, the 
early years. And you made a statement earlier, and I want to 
give you an opportunity to explain it. And this is not about 
you, it is about our thinking as relates to how we are going to 
transition our equipment to be able to continue the effort in 
Iraq and areas like it.
    As you know, we are dealing with the military closing bases 
in Europe, moving into Middle East, Horn of Africa, being able 
to deal with some of these very small, dirty conflicts that we 
are going to have. We are going to need this kind of equipment. 
And you said it is about the future. Maybe I didn't quite 
understand you, but I am hoping that we are not holding back or 
saying that, well, we are going to make all these vehicles 
ready for the terrain we are on now, but we have future 
terrain, and maybe you want to save some for that. But it is 
important as it relates to arms and the legs and the forward 
days in Iraq.
    General Nyland. Yes, sir. Let me take those in reverse 
order. But the first one, absolutely, we are moving--our goal 
now is to work--move for the ground forces in Iraq to an all 
up-armored HMMWV, M1114/M1116 fleet. While we look at what we 
need for the future that will be better than that, we are not 
going to stop providing them with the armor they need.
     I am not familiar with that particular article. In fact, I 
would certainly like to review it because every single Marine 
is issued and has available all of their individual protective 
equipment, and I would be very much surprised to find that that 
was not the case. But certainly I would like to get that 
article and then provide any response to you for the record 
that could clarify that.
    Mr. Meek. Mr. Chairman, very briefly, it is an April 
25<SUP>th</SUP> New York Times article.
    General, there is a number of articles there. If they are 
right or wrong--just because it is a New York Times doesn't 
necessarily mean it is true, but I would say that there is too 
many articles that are coming out like this. And we are doing 
everything we can. When I hear Members of this committee 
begging, literally, and if they could get on their knees, they 
would, Because we all see these young men and women, because we 
don't want the question what were we doing when all this was 
going on.
    General Nyland. I understand, sir, absolutely. But I can 
tell you that every Marine and every sailor serving with the 
Marines is issued and has all of his individual protective 
equipment.
    The Chairman. I thank the gentleman.
    The gentlelady from Virginia Mrs. Drake.
    Mrs. Drake. Thank you, Mr. Chairman.
    Generals, thank you for being with us here today and for 
listening to our frustrations. But what I am really concerned 
about is the process, and we all know, and you said it today, 
that this is an adaptive enemy, and that as soon as they know 
they can't get us one way, there is going to be something new 
that they come up with. So how do we make sure, what has 
happened in the past, that this process works so that you can 
do things more quickly?
    I appreciate that General Catto has accepted responsibility 
and said he didn't follow up, but why should he have had to--
once something was put in process, why didn't it just do what 
it was supposed to do? And so I am concerned because in the 
Second District of Virginia I see these very bright young men 
and women who are so proud of their jobs and doing things to 
come up with new ideas and new ways to do things, and I want to 
make sure when that happens that we have a way to make sure it 
becomes reality.
    So that is my concern is the process for the future and 
that there is something we can fix. And I think other Members 
have said that--tell us how we can help you, but to make sure 
that we have a process that works and does what you think it is 
going to do and we don't have these delays, because there is 
going to be something new, and we don't want to have this same 
discussion in a year or six months or on another war. We want 
you to be able to deal with it.
    General Nyland. Yes, ma'am. And thank you. And we will. We 
will come back with anything that we think will hinder the 
process and ensure that it moves speedily.
    The other thing I think that we will take on ourselves and 
continue to do, which I think we have done in the past, but 
obviously in some places we haven't done it, is impart the same 
sense of urgency to the people that are in--not in harm's way, 
that we are trying to serve, for those who are in harm's way, 
and we will take that on.
    Mrs. Drake. Just like you said, it took two months to let 
the contract. Is there something that needs to be changed, or 
was that just human error on someone's part who is not in 
harm's way?
    General Nyland. That one was a--it was just a lack of--
taking an eye off the ball and not continually prodding someone 
so that they had that sense of urgency.
    Mrs. Drake. I would think you shouldn't have to prod them, 
but thank you.
    General Nyland. Yes, ma'am. I didn't think I would have to 
either.
    Ms. Drake. Thank you.
    The Chairman. I thank the gentlelady.
    The gentleman from Mississippi Mr. Taylor.
    Mr. Taylor. Thank you, General, for being here, for your 
service to our country.
    I am beginning to wonder if we are not throwing a lot of 
money at the wrong solution. It was a while back Colonel Jim 
Riddick, formerly with the Army Liaison Office, came by and 
showed me a variety of South African vehicles that have a V 
bottom; explained the difference with a blast going off with a 
flat bottom versus a V bottom. And I understand that Russians 
in Bosnia have V-bottom vehicles. When they would run over a 
mine, you lose the tires. The crew walks away.
    Are you wedded to the HMMWV? Are you, for political reasons 
or logistic reasons or any other reason that doesn't make 
military sense, being told to fix something that doesn't work 
in Iraq?
    General Nyland. No, sir, I don't think so, I think we look 
at the HMMWV and certainly the M1114, M1116 as the best that we 
know right now.
    That said, with the 27 Cougars that we have, there is 
another 122 coming to all services of which 38 are ours, we 
internally in the Marine Corps are looking at those other South 
African vehicles. The Cougar, of course, is made in South 
Carolina. There are other ways potentially to defeat this 
problem.
    So we are not standing still. We just recognize that right 
now it looks like the 1114 is the way to go while we 
determine--this Cougar is a huge vehicle. Can it be made in 
into a tactical size is the question. This is a 30,000-pound 
vehicle. Can we have a variant that can take a fire team or 
have a variant that can take a squad.
    And I might ask General Catto to comment on this because 
some of his people are doing the work. But we are looking 
across the spectrum. As you say, it is something that is going 
to be better against this threat.
    Mr. Taylor. General, again going to the sense of urgency. 
And again, there may be something that I don't see, but I don't 
see a sense of urgency in looking at a more appropriate vehicle 
for the fight we are in right now and what I presume will be 
similar fights in the future. I am noticing just from what I 
read in the paper a heck of a lot more IEDs going off in 
Afghanistan. I don't think that is a coincidence. Seeing how it 
worked in Iraq, we are going to be seeing that in Colombia, 
Afghanistan; wherever we have American troops, we will see a 
lot of roadside IEDs because, unfortunately, it works. So why 
do we sit back and make the same mistake that was made dragging 
the feet on the body armor, dragging the feet on the jammer, 
dragging the feet on the HMMWVs? I am glad Mr. Hefley has left. 
Why is there not a World War II crash program to respond to 
this?
    I read daily where people in the automotive industry are 
laid off. I believe in Michigan alone, there is 24,000 people 
laid off this month. That means there is an assembly line 
waiting to do something. And if there is an effect to this, 
believe me, I would much rather see that money spent fixing 
this problem than a lot of other things I see this Congress 
spending money on.
    And I what I would like to know at the appropriate time is 
who within the Marine Corps is in charge of that program, 
because I would like to meet that person.
    Second thing I would like to ask, I had a great privilege 
of traveling a couple months ago with Lieutenant General Blum, 
head of the Guard Bureau. We rode in the convoy between two 
fire bases with the Mississippians. Along the way we discovered 
that one of our--just in the previous few days that vehicle had 
been blown up, an IED. This time it was a vehicle-borne IED. 
They had actually come up from behind, pulled alongside the 
vehicle, detonated it.
    What I just found mind-boggling is that as our convoy went 
along, they were running vehicles off at the beginning, but 
allowing vehicles to come up from behind, and which seemed to 
me it would make sense that someone at the tail end of that 
convoy has a sign saying, stay back 200 feet, stay back, 
whatever.
    Are there political restraints that prevent something like 
that? Are we so busy trying to get--put a normal face on life 
in Iraq that we are endangering our troops? Are there 
anything--things like that where you are prohibited from 
telling me, you can't come up that close; you can't tell people 
get off the road ahead of you?
    General Nyland. Sir, to my knowledge there are none. My 
information may be dated. My last trip was last August, but I 
am leaving this afternoon. I will ask the ground commander if 
that is an issue, and I will come back and I will get word back 
to you if we have any, but to my knowledge, there are not any 
issues where we are told that because of some law, that we put 
people in harm's way.
    Mr. Taylor. It may not be a law. It may just be again we 
are trying to put a normal face on what is going on in Iraq, 
and we end up losing people needlessly. It is my understanding 
from conversations with Lieutenant General Blum as of last week 
we still don't have a theaterwide policy that says you can't 
pass us from behind, which certainly seems to be a 
vulnerability.
    General Nyland. Yes, sir. Be honest, sir, I have exhausted 
my knowledge on it because I was unaware of any problems when I 
was there last year. I will ask that question when I go this 
week, and I'll get word back to you, sir.
    Mr. Taylor. Again, thank you for what you are doing.
    Thank you for having us here, Mr. Chairman.
    The Chairman. I thank the gentleman.
    The gentleman from Texas Mr. Conaway.
    Mr. Conaway. Thank you, Mr. Chairman.
    Generals, thank you for your service. I appreciate that. 
General Catto, thank you for your straightforward opening 
statement. I appreciate that very much.
    Help me understand a little bit what is left to do with the 
HMMWVs we have got. With the second MEF, how many do they have, 
and do we have any kind of status as to the armoring of each of 
those? And just give us a sense of what--you said December. 
Help us understand what the scope is we are talking about.
    General Nyland. I will give you sort of a rough count, and 
then I will let General Catto go to any details.
    Basically what we have right now, on the ground we have 
about 500 of the up-armored HMMWVs, some which the Marine Corps 
purchased and some which were provided by Multi-National Corps-
Iraq (MNCI). We will have another 400 delivered by the end of 
September. We have already MAK armored, which is the highest, 
Level II, 700 vehicles. We have 330 fuel----
    Mr. Conaway. Before you go, that is in addition to the 500 
up-armored ones?
    General Nyland. Correct.
    Mr. Conaway. That is 1,200.
    General Nyland. We have 330 kits that will take 82 HMMWVs 
and convert them to MAK. And we have 370-some underbodies whose 
rest of the kit will follow. That will also take those vehicles 
to the full MAK. That is aggregate numbers. General Catto can 
probably go onesie and twosie more, but that gets you to about 
the number we have there.
    In addition to that, we are also flowing in HMMWV A2s that 
we complete here in the States and swap out with our base model 
HMMWVs, of which there are about 600 left, because they can't 
even carry underarmor. They are so old, they can't take the 
weight.
    Mr. Conaway. The 400 that will be delivered in September, 
they are ready to go fully up-armored?
    General Nyland. Those are the M1114s. And between now and 
September, those 400 will be delivered.
    Mr. Conaway. Where are the 600 you just mentioned? Are they 
in theater?
    General Nyland. They are in theater. They are Level two 
armor, and we are slowly replacing them with A2s that we build 
in the United States, not the ones that we convert over there.
    Mr. Conaway. So I have got a total of 1,800 HMMWVs.
    General Nyland. Ballpark 2,000 plus or minus.
    Mr. Conaway. Another 400 on the way in September, so we are 
really talking about 600 that we got folks at more risk than 
other--than the folks driving, than the 1,200?
    General Nyland. As they wait for the underbody, correct.
    General Catto. Six hundred forty baseline. The old HMMWVs. 
Now, what we are doing with those is setting them aside, 
bringing A2s, which is a better vehicle, can carry more weight, 
better armor solution; and then, of course, the up-armored 
HMMWVs M1114s, so by September everybody will be in a MAK kit 
or the M1114.
    Mr. Conaway. General Nyland, would you check--tactically 
are the 600 used differently? It would make sense that you 
would use those 600 as last resort and in missions that 
wouldn't expose the troops. Would you check on that?
    General Nyland. Absolutely. I will, sir, but I can tell you 
for a fact that nothing leaves a forward-operating base or a 
base that is not at least Level two armored.
    Mr. Conaway. Thank you, Mr. Chairman. Yield back.
    The Chairman. Thank the gentleman.
    The gentlelady from San Diego Mrs. Davis.
    Ms. Davis of California. Thank you, Mr. Chairman. Thank you 
to all of you for your service, for being here today.
    And I think one of my colleagues mentioned the country 
under World War II and the fact that, you know, the entire 
country was mobilized, and it is not a surprise that the entire 
country got the sense of urgency that we did then. And in many 
ways we are coming to you and sharing our frustration, and some 
of that could certainly be spread around. I guess we can look 
in the mirror for that. So I appreciate your comments.
    But I wanted to also just reflect on the article that--the 
IG's article and just the fact that a statement was made that 
the Marine Corps's current strategy to meet the current and 
future needs of the force--we are talking about communication 
needs in Iraq, but communication needs in other conflicts as 
well. Can you comment on that, and also whether or not we are 
doing everything that we can to keep communication between the 
distribution units? I think in testimony you stated that you 
are going to Iraq partly to see what is--you know, why, 
perhaps, the needs are not getting to the areas that where the 
greatest concern is. Why is that not happening anyway?
    General Nyland. Yes, ma'am. I think what the IG's report is 
stating is that we have found in particular the communication 
requirements in this conflict are significantly greater than 
what we had ever anticipated. And so that we can keep the 
communication to those disparate units, we find that things as 
common as a guard radio and as complicated as satellite 
stations, we don't have enough of that kind of equipment if we 
are going to be operating over those kinds of distances. And so 
what we have to do as a Marine Corps, which we have already 
undertaken, is an evaluation of what do we need for the future, 
because clearly what we used to think we need, if this war is a 
harbinger for the future, is inadequate. And so while I think 
we have the communications in place over there, as you point 
out, that teach, and talk and communicate with distribution and 
disparate units, we are doing that at the expense of the rest 
of the Marine Corps, and what do we really need for the future? 
And that is what that report is really telling us.
    Ms. Davis of California. I guess what has gotten in the way 
of that? Is it just the size of the task, or are there other 
obstacles that you have?
    General Nyland. I think you have hit it.
    Ms. Davis of California. In terms of technology?
    General Nyland. I think it really is the size of the task, 
and understanding how much equipment, be it the communications, 
be it weapons, be it rolling stock, it really takes to operate 
in a sustained theater such as this.
    This was not what we had always planned for. We were going 
to be the mule, we were going to kick down the door and then 
come out when the larger forces came in. But if this is a 
message for the future, then I think just the enormity of what 
it took to make this work and work well, we have to take that 
to heart and understand and then adapt for the whole of the 
Marine Corps so that we still provide for the Nation a ready, 
relevant, combat force that they need.
    Ms. Davis of California. Thank you.
    In some ways would you suggest or say that we have 
downplayed the need?
    General Nyland. I don't think that we downplayed it. I 
think we went into this making sure that those who went in, who 
were going to go in harm's way, had what they needed. We didn't 
realize how much it would be.
    And so as we identified it. Then, of course, we will bring 
that certainly to the committee and to the Congress in the way 
of the budget and the supplemental for help to make the rest of 
the Marine Corps whole for this type of theater.
    Ms. Davis of California. Will you also be looking at is 
different training required at the distribution centers in 
order to move things quicker; do we not have the--I guess, the 
sort of some basic training in terms of procurement that is 
needed?
    General Nyland. I think, as a matter of fact, one of the 
things that we did when we did our recent force structure 
review group, one of the first things that we identified and 
seems like a small number, but was for about 40 field tactical 
contracting specialists. So we are looking at those kinds of 
things. How do we do better tactics, techniques and procedures 
not only in combat, but in moving the logistics and supply that 
goes with it; the ability to use the radio frequency 
identification tags and know where everything is in the process 
so you can get it to the right person at the right time. And we 
are taking all of that on. We have actually learned a great 
deal, and we learn every day.
    Ms. Davis of California. Thank you. I wish you a safe trip.
    Thank you, Mr. Chairman.
    The Chairman. Thank the gentlelady.
    The gentleman from Arizona Mr. Franks.
    Mr. Franks. Well thank you, Mr. Chairman.
    Thank you, gentlemen for being here. After Mr. Kline's 
comments and Mr. Hunter's comments, it is a little difficult to 
know what I can add constructively, so with the realization 
that there is a lot of redundance here, maybe I can just 
restate some things in a little different way. And I start by 
reiterating Mr. Kline's comments that all of us on this 
committee know and feel your own commitment to protecting these 
young men and women in theater. And we know that you have 
dedicated your entire lives to the cause of human freedom. So 
any criticism that is in the air here should be focused on what 
impact it can have on the future.
    And with that said, I guess, if I can just clump three or 
four questions together here. First of all, I am hearing a 
strong commitment on your part that, at least as applies to 
HMMWVs or at least applies to any personnel vehicle that is in 
danger of these IEDs, which seem to be something we are going 
to be dealing with for a long, long time, is there--in other 
words, is there a strong personal commitment on your part?
    So I guess my question would be, number one, what is the 
long-term plan for dealing with this comprehensively? Number 
two, in the short term we know we must never allow what we 
cannot do to stop us from doing what we can do. And this gunny 
has, I think, shown a tremendous example of what we can do even 
by way of retrofit or doing things in the interim that, you 
know, give some chance, some hope that some family will not 
have to hear that knock at the door, or some mother will not 
have to hear that call that changes their life and soul 
forever. And I know that you know you understand that part of 
leadership is being willing to transcend convention when it is 
appropriate to the primary objective of what the cause is all 
about.
    So having said that, is there also a willingness to allow 
those in the field, and understand that firsthand, to be able 
to do these retrofits until all of the armor is set up? And 
then finally, is there any anything that this committee can do 
in any way to help you do what you must do?
    General Nyland. Yes, sir. I am trying to get those in 
order. As far as for the long-term plan, we have recently asked 
the commander of the ground forces to review his requirement 
for a basically 100 percent up-armored HMMWV fleet. There are 
certain vehicles that cannot be the 1114 or the 1116, the tow 
vehicle, some of the radio vehicles. But to the extent 
possible, what will it take to give you a 100 percent all up-
armored HMMWV fleet, meaning M1114s or M1116s? We have a rough 
cut on that number right now at about 2,600. We are refining 
that. And we will certainly be letting the committee know of 
that requirement as it gets defined, because clearly it will be 
impacted potentially in the 2006 supplemental.
    For the shorter term, and tied into the innovativeness, we 
have on the ground now today 330 of the full Marine Armor Kits, 
which will be installed at our facility in Al Taqaddum. We also 
have 370-some underbodies which have been designed so that they 
can be installed down at the unit level. So it doesn't mean 
taking the vehicle offline, sending it to Taqaddum; rather the 
underbodies will go to the units, and the great young Marines 
in the motor pools will be able to install those.
    And, sir, for what the committee can do, I don't like to 
live in the past tense, but I have to thank the committee for 
all that you have done. And I have heard you loud and clear 
today that should we find obstacles, legislation, law, or 
needs, to come back, and I can assure you that we will, sir.
    Mr. Franks. Thank you, gentleman.
    Thank you, Mr. Chairman.
    The Chairman. I thank the gentlemen.
    The gentleman from Texas Mr. Reyes.
    Mr. Reyes. Thank you, Mr. Chairman.
    And, Generals, I apologize for having to leave, but I have 
another hearing going on, so we have to shuttle back and forth.
    I was wanting to follow up on my colleague's question. 
Given what you know about going to all up-armored HMMWVs, over 
what period of time would this transition occur? Do you have 
any sense or any idea on that?
    General Nyland. I have a little bit of a sense. And if I am 
wrong, I will have General Catto correct me, because he does 
all the buying. But we have about 500 now, and we will have 400 
more delivered in September. My understanding on the options 
that we would have to buy additional of the up-armored HMMWVs 
starting in the September, October time frame would be that we 
could potentially, depending on what our final number is, in a 
period of four to six months, arrive at an all up-armored 
fleet, knowing, of course, that that is not funded right now, 
and that would obviously be a great topic for the fiscal year 
2006 supplemental. That is the aggregate number. I would ask 
General Catto if he can----
    General Catto. Congressman Reyes, Armor Holdings, O'Gara-
Hess, can do 550 a month now. So it is dependent upon what 
portion of that production rate they will give the Marine 
Corps. So with the appropriate funding in the supplemental, if 
you assume even 300 a month, we can have the numbers we need in 
less than a year.
    Mr. Reyes. Less than a year. Are you looking at all at the 
Stryker and the success that it has had to date? Is that--is 
the Stryker of any interest to the Marine Corps?
    General Nyland. No, sir. We have not particularly looked at 
the Stryker because it doesn't fit well inside our 
expeditionary construct.
    Mr. Reyes. There is a lot of concern in my trips to Iraq 
about the rapid rate of deterioration of equipment, vehicles. 
Are there any evaluations or studies ongoing by the Marine 
Corps, you know, in a hostile area like the Middle East about 
the deterioration rate and what we can do about it, how we can 
maybe improve?
    General Nyland. Yes, sir. In fact, we sent the inspector 
again with the Marine Corps with a team full of members from 
all disciplines over there recently, and they have just 
reported back. The committee staff, I believe, is going to get 
a briefing on that this Thursday, and he has taken a look at 
exactly those kinds of things. What is the normal wear and 
tear? What are we experiencing there? What is the readiness? Is 
the time at which we rotate vehicles right; should we do it 
more frequently? It is a very detailed assessment addressing 
the readiness issues, and I will make sure that we get a copy 
of that report to you, sir.
    Mr. Reyes. Thank you.
    The last thing is, I guess it is under the categories of 
lessons learned when we encounter a situation or a threat to 
our troops--and I am thinking specifically about the HMMWV and 
the IEDs and then stepping up the power of the IEDs by 
artillery shells and those kinds of things. In your analysis or 
in this analysis that you are doing, is there some way to be 
able to provide perhaps scenarios as they evolve as we deal 
with things like urban combat and IEDs, and perhaps the next 
level is going to be an IED with chemical or biological parts 
to it? Who--is somebody working on those kinds of things so 
that in the next challenge we are not having to scurry like we 
have been with the armor issue? Is somebody working on those 
kinds of things?
    General Nyland. I think to some extent, yes, sir. Clearly 
we take, on a routine basis, the lessons learned as they exist 
today, and we incorporate those in our trainings for battalions 
that are going over. So the tactics, techniques, procedures 
that the battalions are going to see in Iraq are based on what 
the battalions that are there are experiencing. And when we run 
them through our training out on the west coast at 29 Palms and 
at March, where we train them for about 3 weeks specific to 
operations in Iraq, those things are all taught. We use 
artillery shell simulators to replicate IEDs. We have gotten 
the jammers so that they can train with the jammer. We have 
gotten armored vehicles so they can drive a vehicle that is not 
just a regular HMMWV.
    So absolutely. We use those lessons learned to improve the 
training and make sure it is the most current ones the Marines 
deploy. As far as that next step, to look toward potentially 
chemical or biological weapons, I think there is some effort in 
that area. I am not familiar with the total extent of that.
    I will let General Catto.
    General Catto. Congressman Reyes, the Expeditionary 
Fighting Vehicle is designed with overpressure inside 
specifically to deal with the NBC threat.
    Mr. Reyes. Very good. Thank you, Generals, and thank you, 
Mr. Chairman.
    The Chairman. Thank the gentleman.
    The gentleman from Michigan Mr. Schwarz.
    Dr. Schwarz. General Catto, first I want to say that the 
frame for the Cougar vehicle is made in Charlotte, Michigan, by 
Spartan Motors, which is in my district; great little town 
between Battle Creek and Lansing and the county seat of Eaton 
County.
    I was told about 6 or 8 weeks ago by representatives of the 
UAW, United Auto Workers, that the capacity to produce HMMWV 
frames by AM General, I believe, is actually twice what is 
being produced. They represented to me that they are working a 
10-hour shift 4 days a week, an 8-hour shift 1 day a week and 1 
Saturday, and producing a certain number of frames, I believe 
it was 28 per day, but that they could very easily double that 
if the order came through to do it. They had the personnel to 
do it, the space to do it, the time to do it.
    The response that I received at that time was that they 
could do it, but the holdup would be at the armorer, because 
the armorer could only attach the armor to so many vehicles per 
unit time, and they were pretty well maxed out. Is that 
correct?
    General Catto. Congressman Schwarz, I don't know if it is 
the Armor Holdings folks or the guys at O'Gara-Hess that are 
delaying us. I know that they have gone from about 250 vehicles 
a month and then ramped up successively to where they are now 
550 vehicles a month. So I can't answer your question other 
than to tell you it has been an iterative process where they 
have gotten better every month.
    Dr. Schwarz. Would it be correct to assume--all is a 
dangerous word. Is it correct to assume that the armorers are 
working at capacity now?
    General Catto. I cannot answer that. I will have to check 
and get back to you.
    Dr. Schwarz. Then to follow up with that, it wouldn't be 
illogical, then, to ask the question of the armorers, if the 
manufacturer of the frame could double production very easily, 
as the UAW that represents the workers in that plant have 
represented to me, would it be possible for the armorers to up 
their work, their production, the number of vehicles they put 
out the door commensurate with the number of vehicles that the 
frame manufacturers could put out the door? That would be, I 
think, a logical question.
    I would be most appreciative, sir, if you or your Army 
counterpart or whomever would be the appropriate person to ask 
that question would ask it. And I will--I tried this morning, 
and I will call the UAW again, which is--it might seem a little 
odd for a Republican to be dealing with the UAW, but the UAW is 
very big in my district, and they are great folks. It might be 
appropriate for me to keep calling and try to see if those 
numbers are correct, because it would seem to me that if the 
armorer can keep upping their output, it wouldn't be 
inappropriate to ask the manufacturer of the frame to up their 
output as well.
    General Catto. I will coordinate with Brigadier General Pat 
O'Riley, who is my counterpart in the Army. He is program 
executive officer for combat service support, and we will get 
back to you.
    Dr. Schwarz. Thank you, sir.
    Thank you, Mr. Chairman. I yield back.
    The Chairman. Thank the gentleman.
    The gentleman from Kentucky Mr. Davis.
    Mr. Davis of Kentucky. Thank you, Mr. Chairman.
    I think it is an interesting time, sitting here in the 
committee, to--I am not going to speak as a Congressman, but as 
an engineer who spoke at the Naval Postgraduate School of 
Warfare conference, presented technical papers in the years 
before the war. And so many of expectations that were there, I 
think sometimes we get involved in a lot of emotional 
introspection here that misses the point of the successes of 
services in dealing with a very aggressive, highly adaptive 
enemy that calls for us to adapt as well.
    Just to clarify a point to the gentleman's comments on 
World War II mobilization, I will point out for the record the 
U.S. Military, the Army specifically, entered OIF-I with 330 
armored HMMWVs in the space of 16 months after the threat was 
diagnosed, had over 33,000 armored vehicles in theater, 
tremendous manufacturing accomplishment. I recognize the 
adaptivity of the Marine Corps in dealing with the same thing, 
and I think it is very important for the record to point that 
out.
    Likewise to the gentleman's comments on V-shaped vehicles, 
I will speak as an engineer again, it wouldn't matter if that 
vehicle was sliver-thin, under a 3155 round stacked, the people 
inside are going to be in a tragedy. General, I appreciate you 
pointing out the importance of TTPs and doctrines to shape the 
argument.
    One thing I would like to bring up, though, and this is 
really in light of the Marine Corps' tremendous history in 
being a leader in doctrinal transformation in 1980's and 1990's 
with maneuver warfare, one thing that I have wondered if you 
can comment on in product development--and I don't see this as 
an individual leadership issue, a people issue or an emotional 
issue as much as a process issue and procurement itself, and 
possibly this might be able to be an opportunity to really 
redefine the process and let the Marine Corps--and this is hard 
for me to say as an Army guy, but to reassume a great 
leadership role in a less glamorous area in product 
development. Toyota Manufacturing, for example, will completely 
redesign a car bumper to bumper. Its production process, 
procurement purchase process is every three years. And perhaps 
these unfortunate circumstances we find out ourselves in with a 
tremendous amount of initiative on the front lines and 
motivation with the soldiers and Marines involved in this, it 
might give an opportunity to really redefine it.
    The committee has given you all the resources, certainly 
given the Army as well, but I was wondering if you could 
comment on any initiatives; if you have looked into your 
interest in pursuing that type of a, let's say, more flexible 
response and process and how we might help you if there are any 
intransigent agencies that needed a little help from your 
friends on the committee.
    General Nyland. Sir, I will start and then turn over to our 
acquisitions specialist, because I am a biology major.We have 
and we will continue to seek ways to speed up. We have been 
very successful, as I mentioned some examples where we have 
been able to identify a requirement, slap the table, put it 
under contract and deliver it in 30 days. We like working that 
way. We are also appreciative of the legislation that the 
committee gave us which allowed us to get the Cougar so 
rapidly. And so we will continue to look for ways that we can 
tweak this process, feed the process, and, where we have a 
speed bump, bring it back to you.
    That said, General Catto may be able to elaborate a little 
bit more on some inside that he has already has knowledge of.
    General Catto. I think our biggest frustration with this 
whole process, Congressman, is, you know, you start the fight 
with stuff you have, and where we need to fight with the stuff 
you have. And where we need to move on now with a new threat is 
you have got to get new vehicles that are designed for 
survivability from the ground up. So everything from the 
different frames to the V-shaped, to blast-attenuating seats, 
to armor, that is a new design. That the S&T guys help us with 
so we are not putting three-eighths-thick armor and layers and 
layers, et cetera.
    General Catto. It is going to take us a while. I think if 
we go with a COTS vehicle we talked about previously, that it 
may be as much as 24 months. To develop a vehicle from the 
ground up with just something that doesn't exist, it is going 
to take us about 5 years.
    Mr. Davis of Kentucky. One point, I would just give a 
humble suggestion that as the Small Wars Manual is reasserting 
itself now in the time we live, as we are moving back to a more 
expeditionary type of military like we had 100 years ago, it 
almost suggests some collaboration or an adaptation of that 
same doctrine to maybe define a process of continuous 
improvement that we go to equipment adaptation in theater for 
specific threats. I know the threats that I saw when I spoke at 
the mine warfare conference, and also my friends in the Israeli 
Special Operations Combat Engineers, their equivalent of 
Rangers, it is a little bit different than ours. They are 
everywhere around the world this is encountered. There are 
different types of threats, and rather than being prescriptive, 
I think having these types of principles that would just help 
you close that loop faster. That would be good. Just let us 
know what we can do to help you.
    Thank you, Mr. Chairman.
    General Nyland. Yes, sir. We greatly appreciate your 
support.
    The Chairman. I thank the gentleman.
    The gentleman from Missouri had a few comments.
    Mr. Skelton. Let me echo what my colleague from Mississippi 
said. I don't see a sense of urgency in a lot of what we are 
doing. This is a hearing with the Marine Corps. We have more 
soldiers injured and killed than Marines. Is there a 
coordination between what you are doing and the United States 
Army?
    General Nyland. Yes, sir. Absolutely. General Catto's 
organization is not only closely linked in all of the program 
executive offices, but we are closely linked in our plans 
policy operations as we look at the forces that are going to 
deploy, and certainly myself and the Vice Chief of Staff of the 
Army, General Dick Cody, we talk often about what we are doing 
and the way ahead. So there is--most of these developments are 
all done jointly between us and the Army, particularly those 
that particularly apply to land warfare.
    Mr. Skelton. Would you say that, to your knowledge, the 
Army is moving to get up-armored vehicles to replace its entire 
fleet or not?
    General Nyland. I think that they have adjusted--not to 
speak for them, but they have adjusted their requirement. I 
have seen in various sets of testimony that it is well over, I 
believe, 10,000 now. I certainly would not want to speak for 
what their ultimate number is or whether that would be a 100 
percent force.
    Mr. Skelton. From what you see, you all are singing from 
the same sheet of music on this issue?
    General Nyland. I think we are. We all believe that the 
M1114 and the 1116 are the vehicle that we need to put out 
there for our young Marines and soldiers.
    Mr. Skelton. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. I thank the gentleman.
    And, gentlemen, thank you for being with us today and for 
reviewing this very critical issue.
    General Nyland, you are going to Iraq tomorrow?
    General Nyland. This afternoon, sir.
    The Chairman. This afternoon. When you are you coming back?
    General Nyland. I come back on Sunday night, sir.
    The Chairman. Okay. Let us have another hearing next week, 
maybe next Thursday or Friday. You are going to be back this 
coming--you will be going over for two or three days.
    General Nyland. Coming back I was supposed to go on to San 
Diego that night as well.
    The Chairman. Okay. Let us have another hearing, maybe a 
classified briefing, when you get back.
    General Nyland. Yes, sir.
    The Chairman. And the Ranking Member suggests we bring the 
Army with you. Let us see what we can do there. We have, under 
this rapid acquisition reg that we passed, where the Secretary 
of Defense can waive all U.S. laws and regulations on 
acquisition, we are building this jammer that is kind of a 
major project of this committee, 10,000 in number. We are going 
to try to flood them into theater as quickly as possible.
    Let me make a recommendation that there are certain 
procedures obviously that accompany that system. If you could 
get a couple of the prototypes, a couple of the first ones off 
the line, and start working those so that we don't have, then, 
a long period of familiarization with that system, I think that 
would be important so you know what you are getting, you 
anticipate what you are getting, start figuring out how you are 
going to use it in mounted and dismounted form, because it is 
going to be one that can be used by dismounted troops. I think 
that is important for us.
    General Nyland. This is the Scorpion, which I believe there 
is some discussion of now changing the name to Warlock Blue, 
but we are familiar, sir, and your point is spot on.
    The Chairman. We don't care what they call it. We just want 
it.
    General Nyland. Yes, sir.
    The Chairman. You know, we bolted $50 billion in 
supplemental money on this authorization bill, and I believe it 
is bolted on in such a way that it is available upon the 
signing of the bill by the President. That is obviously a lot 
of money for recap in terms of producing more up-armored 
HMMWVs. I am going to ask Mr. Simmons, who has an industrial 
background, to take a look with your folks in terms of 
facilitizing to perhaps increase that production of the 1114s. 
And so let us see what is possible. Let us see if we can surge 
them.
    I think the gentleman from Michigan had a good point. You 
know, Mr. Simmons and his team from the HASC worked and pulled 
the schedule to the left considerably on the Warlock just by 
getting into the subcomponent makers and looking at the long 
poles and the tent, seeing where they could compress the 
schedule, and they managed to compress it pretty significantly. 
Let us work on that. Let us go forward from this meeting and do 
better. And we have a major problem here. We have this 
disconnect which I think is fairly apparent. We have got to 
solve it for the folks that wear the uniform. I know you want 
to do that.
    My last question, you know, we haven't mentioned who this 
gunny was, but I notice his name is on the front of the 
briefing. So it is pretty tough to hide it here. It is Gunnery 
Sergeant--I think it is Hal Kelly, who is a motor transport 
chief in that particular port of the western area of operation 
in Iraq. Where is he; do you have any idea?
    General Nyland. I believe he is at 29 Palms, sir. I think 
he is in \1/7\<SUP>th</SUP>, the 1<SUP>st</SUP> Battalion, 
7<SUP>th</SUP> Marines, I believe, at 29 Palms.
    The Chairman. Is that right? I think we ought to contact 
him, and he is the kind of guy we ought to have in one of these 
deputy acquisition positions in the Pentagon. I think he knows 
what he is doing. So maybe we will try to--if you could, maybe 
General Kelly could try to get a call in out there and see if 
you can locate that fine gentleman, because we would like to 
let him know that we have been talking about him.
    Thanks for being here. This is a serious issue. It is by no 
means solved. So let us have this first hearing, another 
hearing as soon as you get back.
    And I want to thank the Members for their very thoughtful 
contribution here and for your testimony today.
    And, General Catto, thank you for your testimony. We 
appreciate it.
    The hearing is adjourned.
    [Whereupon, at 11:10 a.m., the committee was adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                             June 21, 2005

=======================================================================

      


      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             June 21, 2005

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T2997.001
    
    [GRAPHIC] [TIFF OMITTED] T2997.002
    
    [GRAPHIC] [TIFF OMITTED] T2997.003
    
    [GRAPHIC] [TIFF OMITTED] T2997.004
    
    [GRAPHIC] [TIFF OMITTED] T2997.005
    
    [GRAPHIC] [TIFF OMITTED] T2997.006
    
    [GRAPHIC] [TIFF OMITTED] T2997.007
    
    [GRAPHIC] [TIFF OMITTED] T2997.008
    
    [GRAPHIC] [TIFF OMITTED] T2997.009
    
    [GRAPHIC] [TIFF OMITTED] T2997.010
    
    [GRAPHIC] [TIFF OMITTED] T2997.011
    
    [GRAPHIC] [TIFF OMITTED] T2997.012
    
    [GRAPHIC] [TIFF OMITTED] T2997.013
    
    [GRAPHIC] [TIFF OMITTED] T2997.014
    
    [GRAPHIC] [TIFF OMITTED] T2997.015
    
    [GRAPHIC] [TIFF OMITTED] T2997.016
    
    [GRAPHIC] [TIFF OMITTED] T2997.017
    
    [GRAPHIC] [TIFF OMITTED] T2997.018
    
    [GRAPHIC] [TIFF OMITTED] T2997.019
    
    [GRAPHIC] [TIFF OMITTED] T2997.020
    
    [GRAPHIC] [TIFF OMITTED] T2997.021
    
    [GRAPHIC] [TIFF OMITTED] T2997.022
    
    [GRAPHIC] [TIFF OMITTED] T2997.023
    
    [GRAPHIC] [TIFF OMITTED] T2997.024
    


      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                             June 21, 2005

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T2997.028
    
    [GRAPHIC] [TIFF OMITTED] T2997.029
    
    [GRAPHIC] [TIFF OMITTED] T2997.030
    
    [GRAPHIC] [TIFF OMITTED] T2997.031
    
    [GRAPHIC] [TIFF OMITTED] T2997.032
    
    [GRAPHIC] [TIFF OMITTED] T2997.033
    
    [GRAPHIC] [TIFF OMITTED] T2997.034
    
    [GRAPHIC] [TIFF OMITTED] T2997.035
    
    [GRAPHIC] [TIFF OMITTED] T2997.036
    
    [GRAPHIC] [TIFF OMITTED] T2997.037
    
    [GRAPHIC] [TIFF OMITTED] T2997.038
    
    [GRAPHIC] [TIFF OMITTED] T2997.039
    
    [GRAPHIC] [TIFF OMITTED] T2997.040
    
    [GRAPHIC] [TIFF OMITTED] T2997.041
    
    [GRAPHIC] [TIFF OMITTED] T2997.042
    
    [GRAPHIC] [TIFF OMITTED] T2997.043
    
    [GRAPHIC] [TIFF OMITTED] T2997.044
    
    [GRAPHIC] [TIFF OMITTED] T2997.045
    
    [GRAPHIC] [TIFF OMITTED] T2997.046
    
    [GRAPHIC] [TIFF OMITTED] T2997.047
    
    [GRAPHIC] [TIFF OMITTED] T2997.048
    
    [GRAPHIC] [TIFF OMITTED] T2997.049
    
    [GRAPHIC] [TIFF OMITTED] T2997.050
    
    [GRAPHIC] [TIFF OMITTED] T2997.051
    
    [GRAPHIC] [TIFF OMITTED] T2997.052
    
    [GRAPHIC] [TIFF OMITTED] T2997.053
    
    [GRAPHIC] [TIFF OMITTED] T2997.054
    
    [GRAPHIC] [TIFF OMITTED] T2997.055
    
    [GRAPHIC] [TIFF OMITTED] T2997.056
    
    [GRAPHIC] [TIFF OMITTED] T2997.057
    
    [GRAPHIC] [TIFF OMITTED] T2997.058
    
    [GRAPHIC] [TIFF OMITTED] T2997.059
    


      
=======================================================================


                   QUESTIONS SUBMITTED FOR THE RECORD

                             June 21, 2005

=======================================================================

      
                   QUESTIONS SUBMITTED BY MR. HUNTER

    The Chairman. Was there an Urgent Universal Need Statement sent 
from II MEF requesting underbody armor? If yes when was it sent and 
what was USMC time on sending it through the system?
    General Catto. There was not a specific UUNS submitted. That said, 
we have been iterating armor requirements directly with the warfighter 
since the beginning of our return to Iraq and II MEF (Fwd) sent a 
message (271728Z Apr. 05) that delineated this requirement.
    The Chairman. Did the USMC look into the feasibility of using a 
``task order'' to speed up the process of acquiring armor?
    General Catto. MCSC did not consider a task order for either the 
MAK or MAS because there was no extent task order for either the HMMWV 
or MTVR that met our requirements.

      <bullet> MAK: While MCSC was still fielding first generation 
armor, PM MT was already in contact with Aberdeen regarding the best 
HMMWV kit protection available at that time. It was the Army Research 
Laboratory (ARL) kit. However, since we had preponderantly HMMWVA2s, we 
opted to enhance the protection, and thereby developed the MAK. The 
most expeditious means of producing it was through the depot at Albany. 
To date, MAK is probably the best add-on HMMWVA2 protection available.
      <bullet> MAS: MCSC initiated an ECP with OTC in November 2003 to 
develop a kit for the MTVR, leveraging off the vehicle's capabilities. 
The MTVR is a Marine-unique piece of equipment, therefore there was no 
``task order'' or extent contract from which to leverage MTVR armor. 
OTC solicited participation from the civilian sector and only three 
vendors responded.

    Obviously, it was going to be a ``bottom up'' effort, not ``adapt-
a-kit.'' We opted to develop and test a high-end and low-end solution. 
The resultant contract with Plasan Sasa through OTC is unique to the 
MTVR.
    The Chairman. How many rocker panels are we purchasing in the 
contract?
    General Catto. Approximately 650 rocker panels will be produced 
from the 450 sheets of 6, x 6, 10 mm sheets of rolled homogeneous armor 
steel purchased from Defense Logistics Agency in Kuwait. The rocker 
panels will be installed on base model HMMWVs. Rocker panels were 
chosen vice underbodies because the base model HMMWV with the current 
level II armor package cannot readily accept the additional 850 pound 
under body without exceeding its gross vehicle weight. In addition, AMC 
is not facilitized to perform the precision cutting required for 
underbody kits.
    The Chairman. Is the USMC requirement for under body armor 675?
    General Catto. The II MEF (Fwd) requirement is for 400 MAK 
underbodies to be installed on HMMWVA2s. All 400 underbodies have been 
produced; as of 15 June, 140 have been delivered with the remaining 260 
enroute via military air. The 650 rocker panel requirement is based off 
the number of base model HMMWVs that will be rotating in/out out of 
theater coupled with normal MAK installs, the 400 MAK underbodies, and 
what II MEF (Fwd) could reasonably install based off operational tempo 
and manpower availability at the organizational level.
    The Chairman. Is the contract we completed two days ago using the 
steel in Kuwait only to fill the requirement or are we using steel from 
other places?
    General Catto. The contract was signed on 20 June. The steel 
procured in Kuwait is being used only for the rocker panel effort. The 
steel for the (400) MAK, (124) 5-ton, and (243) LVS underbodies was 
procured in CONUS. The MAK effort was completed by Maintenance Center 
Albany who is also producing the LVS kits; the 5-ton effort is being 
produced by Maintenance Center Barstow.

Underbody Steel Current Status: Per Marine Corpse Systems Command 
(MCSC), overall plan is for contractor to fabricate 650 steel rocker 
panels for II MEF forward and units to install on base model HMMWV's in 
Iraq. USMC has purchased steel (450 plates, RHA \3/8\ inch x 6 feet x 6 
feet) and is expecting contract award on 20 June. Deliveries of panels 
are expected in three weeks and complete 8 weeks after contract award.
Ballistic Glass Current Status: Per MCSC, II MEF forward has submitted 
an urgent needs statement for ballistic glass to be incorporated into 
the HMMWV/MTVR cargo flanks and gunner shields. MCSC immediately began 
work on the ballistic glass design into HMMWV cargo flank. First 
prototype has been produced; 25 prototypes will be produced and sent to 
II MEF for evaluation. In addition, Marine Corps has engaged OSHKOSH 
troop company to incorporate ballistic glass into the MTVR. 
Incorporating ballistic glass into the gunner shields will take a 
deliberate engineering effort as there is no readily available COTS 
solution. Survivability, weight, balance and durability will be a 
challenge.

                                  <all>

</pre></body></html>
